      Department of Homeland Security





       DHS’ Efforts To Coordinate and Enhance
         Its Support and Information Sharing
                   With Fusion Centers




OIG-12-10                                  November 2011

November 16, 2011
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


           Fusion Center Characteristics Vary .........................................................................2


           Past and Current Efforts To Provide

              Coordinated Support to Fusion Centers ..............................................................6


Results of Review ..............................................................................................................14


           DHS’ Efforts To Strengthen Its Support to the

             National Network of Fusion Centers.................................................................14

           Recommendations..................................................................................................20

           Management Comments and OIG Analysis ..........................................................21


           Efforts To Develop a Department-wide Fusion Center 

              Support Strategy Are Ongoing, but Improvements Are Needed ......................22

           Recommendations..................................................................................................31

           Management Comments and OIG Analysis ..........................................................32


           Opportunities Exist To Improve Intelligence Officer Deployments......................33

           Recommendations..................................................................................................36

           Management Comments and OIG Analysis ..........................................................36


Conclusion .........................................................................................................................37



Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................39

     Appendix B:           Recommendations................................................................................41

     Appendix C:           Management Comments to the Draft Report .......................................42

     Appendix D:           DHS Funding Sources for Fusion Centers...........................................47

     Appendix E:           Examples of Fusion Center Activities .................................................49

     Appendix F:           Major Contributors to this Report........................................................52

     Appendix G:           Report Distribution ..............................................................................53



Abbreviations
     CBP                   U.S. Customs and Border Protection 

     COC                   Critical Operational Capabilities 

     DHS                   Department of Homeland Security 

     DOJ                   Department of Justice 

Table of Contents/Abbreviations 

  FBI     Federal Bureau of Investigation
  FCIU    Fusion Center Integration Unit
  HSDN    Homeland Secure Data Network
  I&A     Office of Intelligence and Analysis
  ICE     U.S. Immigration and Customs Enforcement
  IO      Intelligence Officer
  MOU     memorandum of understanding
  OIG     Office of Inspector General
  SLPO    State and Local Program Office
  TSA     Transportation Security Administration
  USCG    U.S. Coast Guard
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                       The Department of Homeland Security (DHS) coordinates activities
                       to improve information sharing efforts among federal, state, local, and
                       tribal government agencies and the private sector as required by the
                       Homeland Security Act of 2002, as amended. To promote greater
                       information sharing and collaboration among federal, state, and local
                       intelligence and law enforcement entities, state and local authorities
                       established fusion centers throughout the country. A fusion center is
                       a collaboration of two or more agencies to receive, gather, analyze,
                       and disseminate information intending to detect, prevent, investigate,
                       and respond to criminal or terrorist activity. DHS’ Office of
                       Intelligence and Analysis (I&A), through its State and Local Program
                       Office, is responsible for coordinating federal support to fusion
                       centers.

                       In July 2009, I&A recognized DHS’ inability to institute a
                       coordinated department-wide approach to support and interact with
                       the National Network of Fusion Centers. In response to this
                       shortcoming, DHS’ Secretary recommitted departmental support to
                       fusion centers.

                       We assessed DHS’ efforts to coordinate and enhance its support to
                       fusion centers as part of our Fiscal Year 2011 Annual Performance
                       Plan. Specifically, we reviewed whether: (1) the State and Local
                       Program Office satisfies the intent of DHS’ recommitment to the State,
                       Local, and Regional Fusion Center Initiative; (2) planned State and
                       Local Program Office efforts will ensure coordinated support of DHS
                       and its components to provide needed information and resources to
                       fusion centers; and (3) any functional or organizational challenges
                       exist within DHS that hinder its successful support to fusion centers.

                       Since July 2009, the State and Local Program Office has increased
                       field support to fusion centers, worked to improve fusion center
                       capabilities, and engaged DHS components. Efforts to develop a
                       department-wide fusion center support strategy are ongoing, but
                       improvements are needed to enhance I&A field deployments and
                       DHS component support. We are making seven recommendations to
                       assist the State and Local Program Office in improving DHS’ support
                       to fusion centers; I&A concurred with all recommendations.


    DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                               Page 1
Background
        The Homeland Security Act of 2002, as amended, established and charged DHS
        with coordinating activities and improving information sharing efforts among
        federal, state, local, and tribal government agencies and the private sector. 1
        Information sharing has become a primary means to detect, identify, and assess
        terrorist threats and vulnerabilities to our Nation. To promote greater information
        sharing and collaboration among federal, state, and local intelligence and law
        enforcement entities, state and local authorities established fusion centers throughout
        the country. The term “fusion” refers to the overarching process of managing the
        flow of information and intelligence across all levels and sectors of government and
        private industry, and through analysis, provides meaningful intelligence.

        Fusion Center Characteristics Vary
                A fusion center is “a collaborative effort of two or more agencies that
                provide resources, expertise, and information to the center with the goal of
                maximizing their ability to detect, prevent, investigate, and respond to
                criminal and terrorism activity.” 2 Fusion centers are owned and operated
                by state and local jurisdictions, and vary widely across the Nation in
                staffing and facility size, mission focus, partnerships, and funding sources.

                         Fusion Center Designation

                         Many states have multiple entities capable of interfacing with
                         federal agencies and sharing intelligence information. In November
                         2007, the Secretary of Homeland Security and the Attorney General
                         sent a letter to Governors requesting that Governors “designate a
                         single fusion center to serve as the statewide or regional hub to
                         interface with the federal government and through which to
                         coordinate the gathering, processing, analysis, and dissemination of
                         terrorism, law enforcement, and homeland security information in
                         an all crimes approach.” In this letter, the Secretary and Attorney
                         General encouraged Governors to develop an information sharing
                         strategy that includes any major urban area fusion centers. To
                         allocate resources effectively and efficiently, the federal
                         government recognizes three categories of state and local
                         information sharing entities: primary fusion centers, recognized
                         fusion centers, and nodes. As of April 2011, there were 50
                         designated fusion centers. Many states have one center, but others
                         have additional centers in various urban areas. DHS considers 22


1
 Public Law 107-296 (November 25, 2002). 

2
 DHS and the Department of Justice, Fusion Center Guidelines: Developing and Sharing Information and 

Intelligence in a New Era, August 2006, p. 2. 


     DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                                Page 2
                         of these additional urban area fusion centers as recognized centers.
                         Recognized centers serve as information hubs to a state’s
                         designated center. These 72 state-designated and major urban area
                         fusion centers are known as the National Network of Fusion
                         Centers.

                         In addition, there are an unknown number of nodes, which are
                         intelligence centers that serve similar state and local law
                         enforcement, emergency management, and homeland security
                         stakeholder functions. Some of these nodes have mature operations
                         and strong local support. These nodes play an integral role in their
                         state’s homeland security structure and maintain mutually beneficial
                         partnerships with DHS and other federal departments and agencies.

                         Staffing and Facility Size

                         Fusion center staff range in size from four members to more than
                         100. According to a 2010 Government Accountability Office
                         report, approximately 25% of responding fusion centers had fewer
                         than ten people, while slightly more than 25% had more than 50. 3
                         Some staff at smaller fusion centers fulfill multiple roles, while
                         other centers have divisions of staff dedicated solely to information
                         and intelligence analysis. In terms of facilities, some fusion centers
                         are stand-alone buildings, some occupy multiple building floors,
                         and others are single rooms colocated with homeland security or
                         emergency management operations.

                         Mission Focus

                         Fusion centers were established to receive, analyze, gather, and
                         share threat-related information. The state, local, tribal, and
                         territorial governmental entities that own or are considering
                         operating a fusion center define the mission focus and scope of
                         activities differently. A fusion center’s mission depends on the
                         environment in which it operates. Some fusion centers have
                         adopted an “all-crimes” approach, whereas others have also
                         included an “all-hazards” approach. Therefore, fusion center
                         missions can include: counterterrorism; criminal analysis and case
                         support; emergency management; and critical infrastructure
                         identification, assessment, and protection.




3
 Federal Agencies Are Helping Fusion Centers Build Capabilities and Protect Privacy, but Could Better
Measure Results, GAO-10-972, September 2010.

     DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                                 Page 3
                          Partnerships

                          Fusion centers are primarily staffed by state and local personnel.
                          They may include sworn law enforcement officers and civilian
                          personnel from police and sheriff’s departments, as well as
                          employees from fire service, emergency management, criminal
                          justice, and public health departments and agencies.

                          To promote greater information sharing and collaboration among
                          federal, state, and local intelligence and law enforcement entities,
                          DHS’ I&A has committed funding and resources for its presence at
                          all fusion centers. Some fusion centers have representatives from
                          other DHS components, including but not limited to U.S.
                          Immigration and Customs Enforcement (ICE), U.S. Customs and
                          Border Protection (CBP), the Transportation Security
                          Administration (TSA), U.S. Secret Service, and the U.S. Coast
                          Guard (USCG).

                          In addition, some fusion centers have Department of Justice (DOJ)
                          personnel from the Federal Bureau of Investigation (FBI), and the
                          Bureau of Alcohol, Tobacco, Firearms and Explosives, and work
                          with the Drug Enforcement Administration and the U.S. Attorney’s
                          Office. Several fusion centers are also colocated with High
                          Intensity Drug Trafficking Areas Investigative Support Centers, the
                          FBI’s Field Intelligence Groups, and Joint Terrorism Task Forces. 4
                          These task forces operate in approximately 104 cities nationwide
                          and are composed of highly trained, locally based investigators,
                          analysts, and other specialists from dozens of U.S. law enforcement
                          and intelligence agencies. This multiple-agency effort is led by
                          DOJ and the FBI, and is designed to promote regional information
                          sharing to combat terrorism by combining federal, state, and local
                          law enforcement resources. Fusion centers forward information
                          that appears to have a terrorism nexus to their local Joint Terrorism
                          Task Force.

                          Funding Sources

                          Fusion center funding comes from a variety of sources. For
                          example, some fusion center budgets are provided directly from
                          state and local law enforcement and homeland security entities,
                          while other centers receive state and local grants. States can apply
                          for DHS funding to enhance fusion center capabilities through the

4
 High Intensity Drug Trafficking Area Investigative Support Centers are sponsored by the Office of
National Drug Control Policy and aim to support the disruption and dismantlement of drug-trafficking and
money-laundering organizations through the prevention or mitigation of associated criminal activity.

     DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                                  Page 4
                         department’s Homeland Security Grant Program. 5 DHS awards
                         these grants to states to enhance the ability of state, territorial,
                         tribal, and local governments to prepare for, prevent, respond to,
                         and recover from potential terrorist attacks and other hazards. This
                         grant program consists of five sub-programs: the State Homeland
                         Security Program; the Urban Areas Security Initiative; Operation
                         Stonegarden; the Metropolitan Medical Response System Program;
                         and the Citizen Corps Program. However, Operation Stonegarden
                         does not support fusion centers. Appendix D describes these DHS
                         grant programs in detail.

                         In FY 2010, more than $1.7 billion was made available to states
                         under the Homeland Security Grant Program. Although fusion
                         centers are often part of a state homeland security structure, states
                         are not required to provide DHS grant funds to fusion centers unless
                         the states specifically apply for fusion center-related projects. In
                         addition, until FY 2011, DHS grant guidance language did not
                         require specific investment justifications for fusion centers. As a
                         result, it is difficult to determine the amount of DHS grant funding
                         actually used to support fusion center activities and operations.

                         In addition to the Homeland Security Grant Program, the Buffer
                         Zone Protection Program is a critical infrastructure protection grant
                         that made $48 million available in FY 2010. 6 This program aims to
                         increase a jurisdiction’s ability to ensure the safety of communities
                         surrounding predetermined nationally significant critical
                         infrastructure and key resources. Critical infrastructure are assets,
                         systems, and networks, both physical or virtual, which are so vital to
                         the United States that incapacitation or destruction would debilitate
                         security, national economic security, and public health or safety. Key
                         resources are publicly or privately controlled resources essential to
                         the minimal operations of the economy and government. Fusion
                         centers with critical infrastructure protection or incident response
                         functions have benefited from this grant program in the past.

                         Fusion centers also leverage funding from other federal departments
                         and agencies. For example, DOJ makes funding available through
                         its Office of Community Oriented Policing Services and through
                         assistance from the Bureau of Justice Assistance. Funding and
                         assistance is also available from the Department of Health and
                         Human Services, Centers for Disease Control and Prevention.


5
  Fiscal Year 2010 Homeland Security Grant Program Guidance and Application Kit, U.S. Department of 

Homeland Security, December 2009. 

6
  Fiscal Year 2010 Buffer Zone Protection Program Guidance and Application Kit, U.S. Department of 

Homeland Security, December 2009. 


     DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                                Page 5
        Past and Current Efforts To Provide Coordinated Support to
        Fusion Centers
                 In June 2006, DHS designated I&A as its Executive Agent for fusion center
                 program management and issued the DHS Support Implementation Plan for
                 State & Local Fusion Centers. In 2007, through the Implementing
                 Recommendations of the 9/11 Commission Act of 2007, Congress
                 acknowledged I&A’s primary responsibility and efforts to share information
                 with state, local, and regional officials, but stressed the need to play a
                 stronger, more constructive role to provide the maximum amount of
                 support for fusion centers. 7 Section 511 of this act specified DHS’
                 requirements to support fusion centers.

                 I&A performed this role through its State and Local Program Office
                 (SLPO). The office focused on managing and deploying I&A Intelligence
                 Officers (IOs) to fusion centers and the centers’ access to the Homeland
                 Secure Data Network (HSDN). 8 In addition, SLPO hosted state and local
                 representatives at I&A and maintained liaison relationships with state and
                 local law enforcement to enhance understanding of DHS’ missions,
                 capabilities, and role in the National Network of Fusion Centers.

                 In response to the department’s efforts to support fusion centers and the
                 National Network, the Government Accountability Office, the
                 Congressional Research Service, and our office produced reports
                 recommending improvements to internal DHS coordination, aligning
                 fusion center activities and funding with the department’s mission, and
                 deploying personnel to state and major urban area fusion centers in a timely
                 manner. 9

                 In July 2009, Secretary Napolitano approved a request by I&A for the
                 Department to recommit to a DHS State and Local Fusion Center Initiative.
                 The request recognized DHS’ previous inability to institute a well-
                 coordinated, department-wide approach to support and interact with fusion
                 centers, resulting in a disjointed and ad hoc approach to support and
                 interaction.



7
  Implementing Recommendations of the 9/11 Commission Act of 2007, Conference Report to Accompany
H.R. 1, Report No. 110-259, p. 308. 

8
  HSDN contains Secret-level classified information and serves as an information sharing platform for DHS. 

It is also able to facilitate secure video teleconferences. 

9
  Homeland Security: Federal Efforts Are Helping to Alleviate Some Challenges Encountered by State and
Local Information Fusion Centers, Government Accountability Office-08-35, October 2007; Fusion
Centers: Issues and Options for Congress, Congressional Research Service Report for Congress, July 6,
2007; and DHS’ Role in State and Local Fusion Centers is Evolving, OIG-09-12, December 2008,
respectively.

     DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                                  Page 6
           At the time of the recommitment, SLPO had two ways of supporting fusion
           centers: field deployments and headquarters support. In the field,
           deployed IOs and Regional Directors focus on developing and advancing
           fusion center capabilities. IOs are assigned to a fusion center and serve as
           the main point of contact between the center and DHS. Regional Directors
           supervise IOs located at fusion centers within their respective regions.
           Figure 1 shows the 72 fusion centers and SLPO’s field presence as of April
           2011. At headquarters, SLPO support includes providing guidance,
           coordinating with other federal departments and agencies and DHS
           components, and sharing federally generated information with the National
           Network of Fusion Centers.

           Figure 1: State and Local Program Office Fusion Center Deployments as of April 2011




  Source: OIG Analysis




DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                           Page 7
                         State and Local Program Office Restructuring Efforts

                         In October 2009, I&A’s Principal Deputy Under Secretary began
                         leading a Senior Executive Service Fusion Center Advisory Group
                         in meetings that include leaders from all DHS components. Group
                         discussions concern how the Department could improve its support
                         to fusion centers. Also, on December 7, 2009, Secretary Napolitano
                         tasked the Chief Intelligence Officer to determine the feasibility and
                         resource requirements necessary to lead the department-wide
                         recommitment to more coordinated and effective support. Using
                         the Senior Executive Service Fusion Center Advisory Group
                         meetings, the I&A Principal Deputy Under Secretary and the SLPO
                         worked to complete the study.

                         On February 22, 2010, I&A submitted the study results to Secretary
                         Napolitano, and recommended new functions to address the prior
                         inability to coordinate across DHS components. I&A would aim to
                         provide “One DHS” support to fusion centers, and build on and use
                         SLPO and other DHS component resources. 10 In addition to
                         providing support for deployed IOs, new mission areas would
                         include assisting fusion centers with the following:

                             •    Personnel and physical security
                             •    Training and technical assistance
                             •    Sustainment and technology
                             •    Fusion center management and governance
                             •    Privacy and civil rights/civil liberties
                             •    Strategic communications and outreach
                             •    Analysis production and dissemination

                         As other federal departments and agencies are required to support
                         the National Network of Fusion Centers, the White House issued
                         guidance in July 2009 that directed DHS to help identify an office
                         to coordinate federal efforts to support fusion centers. 11 The
                         guidance also directed both DHS and DOJ to develop a permanent
                         and recurring capabilities assessment process that would identify
                         any gaps and the resources needed to make the National Network of
                         Fusion Centers sustainable. In addition, on December 17, 2009, the
                         White House tasked DHS as the lead in establishing a multiagency
                         office to coordinate all federal support for the growing network of


10
   “One DHS” is the concept of a strong, efficient Department that focuses on the common mission and 

responsibilities that tie the components together within the DHS organization. 

11
   White House Memorandum, “FY 2011 Programmatic Guidance for Information Sharing Environment,” 

issued on July 28, 2009, Tab A, “FY 2011 Information Sharing Environment Programmatic Guidance.” 


     DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                                Page 8
                         state and major urban area fusion centers. I&A completed the
                         implementation plans for this multiagency office in June 2010.

                         The restructured SLPO, as shown in figure 2, now incorporates
                         elements of both DHS’ recommitment and the White House
                         guidance. Its mission is to “strengthen information sharing and
                         fusion centers’ ability to rapidly identify, analyze, and disseminate
                         information about homeland security threats by coordinating
                         departmental support and providing essential resources required to
                         enhance fusion center operations and operate as an integrated
                         National Network.” 12

                Figure 2: Restructured State and Local Program Office Organization Chart




        Source: OIG Analysis


                         As shown in figure 2, SLPO has two divisions: Policy and
                         Planning, and Operations. The Policy and Planning Division
                         focuses on maintaining fusion center capabilities and coordinating
                         interagency federal support to fusion centers, while the Operations
                         Division focuses on DHS coordination and support to fusion centers.


12
 SLPO presentation, “Office of Intelligence and Analysis State and Local Program Office: Program
Overview,” January 2011.

     DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                                Page 9
                            The SLPO also interacts and collaborates with other departments
                            and agencies through the White House-based Information Sharing
                            and Access Interagency Policy Committee. For this committee,
                            I&A’s Principal Deputy Under Secretary chairs the Fusion Center
                            Sub-Committee and SLPO serves as the Executive Secretariat. As a
                            result, SLPO coordinates and develops interagency policy for fusion
                            centers, develops and manages the Sub-Committee’s work plan, and
                            leads staff support efforts.

                            Department of Justice Engagement With Fusion Centers

                            DHS’ major federal partner in supporting the National Network of
                            Fusion Centers is DOJ. FBI field offices and other DOJ agencies
                            engage and contribute personnel to fusion centers at varying levels,
                            providing liaison and reach-back capability, assigning full-time
                            detailed analytical staff, and filling leadership roles at some. The
                            FBI field offices coordinate fusion center engagement to ensure that
                            its field offices and fusion centers do not duplicate efforts.

                            In addition to providing personnel, the FBI supports fusion centers
                            by providing “in-kind” contributions, such as having fusion centers
                            colocated within FBI buildings or with FBI Joint Terrorism Task
                            Forces at no cost to the centers. The FBI also contributes physical
                            and technological security infrastructure, including secure rooms
                            and T1 lines, to ensure that centers meet FBI space standards and
                            requirements. 13

                            DOJ’s Bureau of Justice Assistance and the Federal Emergency
                            Management Agency’s National Preparedness Directorate
                            collaborate to provide training and resources for fusion centers
                            through the joint DHS/DOJ Fusion Process Technical Assistance
                            Program. In 2006, these services included assisting fusion centers
                            achieve capabilities to receive, gather, analyze, and disseminate
                            information; strengthening strategic plans and governance;
                            developing concept of operations; protecting privacy and civil
                            rights/civil liberties; complying with Criminal Intelligence Systems
                            Operating Policies; enhancing administration and management
                            practices; and supporting the Fusion Liaison Officer Program. 14


13
   A T1 line is a specific type of copper or fiber optic telephone line that can carry more data than traditional
telephone lines.
14
   A regulation codified at 28 CFR Part 23, Criminal Intelligence Systems Operating Policies, ensures the
privacy and constitutional rights of individuals during the collection and exchange of criminal intelligence
information. It applies to any state or local law enforcement agency that operates a criminal intelligence
system supported by the Omnibus Crime Control and Safe Streets Act of 1968, as amended.

      DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                                     Page 10
                           Since 2006, fusion center services have evolved to include
                           development services for more mature centers that focus on
                           reviewing, refining, and enhancing processes. Additional services
                           include providing technology assistance and security; integrating
                           and sharing information with fire service and emergency operations
                           centers; and facilitating exchange of best practices between fusion
                           centers.

                           Establishing Fusion Center Baseline Capabilities

                           In October 2003, DOJ published the National Criminal Intelligence
                           Sharing Plan, which provided direction to fusion centers on ways to
                           share criminal intelligence. DOJ and DHS used this plan to
                           establish the Fusion Center Guidelines: Developing and Sharing
                           Information and Intelligence in a New Era (Guidelines), which
                           were distributed to fusion centers in August 2006. There are 18
                           guidelines, each addressing a different element of fusion center
                           operation. Overall, the Guidelines seek to improve coordination,
                           partnerships, and capabilities among the fusion centers.

                           In January 2007, DOJ and DHS met to discuss which of the
                           Guidelines were integral to a fusion center’s success. The resulting
                           document, called the Baseline Capabilities for State and Major
                           Urban Area Fusion Centers: A Supplement to the Fusion Center
                           Guidelines (Baseline Capabilities), was presented at the 2008
                           National Fusion Center Conference. 15 The Baseline Capabilities
                           addressed two key areas: the ability to perform the intelligence
                           (information fusion) process, and management and administrative
                           capabilities.

                           In October 2007, the President issued guidance in the National
                           Strategy for Information Sharing: Success and Challenges in
                           Improving Terrorism-Related Information Sharing, directing the
                           federal government to include state and major urban area fusion
                           centers as partners in information sharing. This strategy discusses a
                           need for the federal government to establish, and, subsequently, for
                           fusion centers to maintain, a baseline level of operational capability.
                           By developing the Baseline Capabilities, DHS and DOJ have
                           worked toward establishing minimum performance requirements
                           for fusion centers.



15
  The National Fusion Center Conference, hosted annually by DHS, DOJ, and the Office of the Director of
National Intelligence, brings together fusion center directors, homeland security advisors, law enforcement,
and federal personnel to share best practices, develop partnerships, and discuss center capabilities.

     DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                                   Page 11
                          In March 2010, fusion center directors worked with federal partners
                          from DOJ, DHS, and the Program Manager for the Information
                          Sharing Environment to prioritize the capabilities identified in the
                          Baseline Capabilities. 16 The
                          four prioritized capabilities,
                          known as the Critical
                          Operational Capabilities
                          (COC), were presented at the
                          2010 National Fusion Center
                          Conference in New Orleans,
                          Louisiana. The COCs align
                          with the steps of the
                          intelligence cycle and the
                          fusion process.

                          At the conference, fusion
                          center and federal partners also
                          identified four enabling
                          capabilities that contribute to a
                          center’s ability to perform the
                          COCs. The four enabling
                          capabilities relate to (1) privacy
                          and civil rights/civil liberty
                          protections, (2) a sustainment
                          strategy, (3) outreach and
                          communication, and
                          (4) clearance and security.              Source: Critical Operational Capabilities
                                                                   for State and Major Urban Area Fusion
                                                                   Centers Gap Mitigation Strategy,
                          Assessing Fusion Center                  December 2010
                          Capabilities

                          From April to September 2010, the Program Manager for the
                          Information Sharing Environment, with DHS and DOJ, conducted a
                          Baseline Capabilities Assessment to evaluate each center’s ability
                          to perform the COCs. The assessment was completed in two parts:
                          centers completed a self assessment, and teams of federal, state, and
                          local fusion center subject matter experts conducted site visits to
                          confirm the survey responses. Fusion centers were given a rating of
                          green, yellow, or red in each COC based on the results, with green
                          signifying that fusion centers have a plan, policy, or standard
                          operating procedure in place to execute the fundamentals of the



16
  The Information Sharing Environment was established by the Intelligence Reform and Terrorism
Prevention Act of 2004, as amended, to facilitate information sharing among all appropriate federal agencies
and state, local, tribal, and private sector partners.

     DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                                  Page 12
                    COC. Figure 3 shows the baseline capabilities assessment color-
                    coded rating scale with corresponding descriptions.

                    Figure 3: Baseline Capabilities Assessment Rating Scale




                    Source: Short-Term Critical Operational Capabilities Gap Mitigation Strategy
                    Progress Report, April 2011


                    In September 2010, 28 of the 72 fusion centers had at least a yellow
                    rating in all four COCs. By December 2010, 35 centers had
                    achieved green ratings for all COCs and 68 had no red ratings.

                    Using the assessment results, the fusion center directors and federal
                    partners worked together to develop short- and long-term gap
                    mitigation strategies as guidance for fusion centers to earn a green
                    rating for all COCs. The short-term approach outlined immediate
                    actions to help ensure fusion centers are capable of executing the
                    COCs during situations involving time-sensitive and emerging
                    threat information. Based on the foundation established by the
                    short-term approach, the long-term COC gap mitigation activities
                    will support fusion center efforts to fully achieve and maintain the
                    COCs and privacy and civil rights/civil liberties protections. The
                    federal government will also apply lessons learned from the first
                    Baseline Capability Assessment to institute a repeatable assessment
                    process that measures progress and continued maturity.

                    SLPO is DHS’ lead in supporting the National Network of Fusion
                    Centers. It provides field and headquarters assistance to the centers,
                    coordinates DHS component activities, develops guidance, and
                    leads the federal effort to support the fusion centers. We reviewed
                    SLPO’s efforts concerning DHS’ recommitment to the National
                    Network of Fusion Centers, coordination of DHS and component
                    support, and functional or organizational challenges hindering
                    effective DHS support to the network.


DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                             Page 13
Results of Review
     DHS’ Efforts To Strengthen Its Support to the National Network
     of Fusion Centers
              DHS leadership has made supporting the National Network of Fusion
              Centers a priority for the Department, and I&A’s reorganization has
              empowered SLPO to lead the department’s recommitment. Since 2009,
              SLPO has increased field support to fusion centers, worked to enhance
              fusion center capabilities, and engaged DHS components in this
              recommitment. Although SLPO efforts to develop a department-wide
              fusion center support strategy are ongoing, improvements are needed to
              address remaining challenges.

                       Supporting the National Network of Fusion Centers Is a
                       Priority for DHS Leadership

                       In addition to restructuring the SLPO, DHS’ Secretary emphasized
                       the department’s recommitted support to the National Network of
                       Fusion Centers through congressional testimony, media interviews,
                       and remarks at community and
                       law enforcement meetings, and to
                       the department’s employees.

                       On September 10, 2010, the
                       Secretary addressed first
                       responders at the New York City
                       Emergency Operations Center,
                       explaining the department’s shift
                       to a “hometown-centric” approach.
                       By getting departmental
                       information, tools, and resources
                       to first responders, citizens, community groups, and the private
                       sector, DHS can be more effective. The National Network of
                       Fusion Centers is crucial to this effort.

                       Between February 2009 and March 2011, the Secretary spoke on
                       more than 20 occasions concerning the importance of partnerships
                       with state, local, tribal, and territorial agencies; the role of fusion
                       centers in the homeland security framework; and her vision for the
                       department’s support to the National Network of Fusion Centers.




   DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                              Page 14
                    Reorganization Empowers the State and Local Program Office
                    To Support the Department’s Recommitment

                    In May 2010 testimony before the House Committee on Homeland
                    Security, I&A’s Under Secretary and Principal Deputy Under
                    Secretary highlighted the importance of the fusion center initiative,
                    and specified how I&A would restructure to support the initiative
                    better. As shown in figure 4, in March 2008 SLPO was positioned
                    organizationally four levels below I&A’s senior leadership.

                    Figure 4: Elevation of SLPO Within I&A




                    Source: OIG Analysis


                    With the office restructure in November 2010, the Director of
                    SLPO now reports directly to the Principal Deputy Under Secretary,
                    who has oversight of the department’s overall fusion center
                    coordination and support efforts. Stakeholders within and outside
                    of DHS agreed that SLPO is appropriately placed within I&A,
                    because fusion centers are intelligence organizations, and the main
                    DHS representatives in centers are IOs.


DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                           Page 15
                    Increased Field Support and Intelligence Officer Deployments
                    to Fusion Centers

                    As the Executive Agent for the National Network of Fusion
                    Centers, SLPO has increased the department’s involvement and
                    support to centers. To link fusion centers and DHS, IOs are
                    detailed to serve in a liaison capacity and facilitate information
                    sharing, communication, cooperation, and collaboration among
                    DHS and other governmental partners. IOs are a valuable resource
                    to centers because they have experience handling and accessing
                    intelligence and information. IOs also assist in achieving
                    compliance with the Baseline Capabilities and help develop fusion
                    center analysis capabilities.

                    Expanding IO fusion center coverage is one of SLPO’s primary
                    initiatives. Between FY 2004 and FY 2010, SLPO hired 64 people
                    to staff field IO and Regional Director positions. Table 1 shows the
                    number of SLPO staff hired by fiscal year.

                             Table 1: SLPO Staff Hired FY 2004 to FY 2010
                                Fiscal Year           Number of Staff Hired
                                   2004                         3
                                   2005                         7
                                   2006                         3
                                   2007                         3
                                   2008                         5
                                   2009                        16
                                   2010                        27
                             Source: SLPO


                    As of April 2011, 61 IOs and 9 Regional Directors were assigned to
                    fusion centers. SLPO plans to deploy a total of 72 IOs and 10
                    Regional Directors by the end of FY 2011.

                    Intelligence Officers Serve as Liaisons

                    IOs complete a 3-week “On-Boarding” orientation program before
                    deploying to fusion centers. This training provides participants
                    with background information on the department and knowledge of
                    its component missions. IOs also conduct outreach with state and
                    local stakeholders, such as local law enforcement organizations and
                    various working groups. As representatives for both DHS and
                    fusion centers, IOs can promote missions and initiatives for both
                    groups. For example, an IO can inform local stakeholders and other
DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                            Page 16
                             governmental partners about the Nationwide Suspicious Activity
                             Reporting Initiative and the “If You See Something, Say
                             Something™” national campaign. 17 The Nationwide Suspicious
                             Activity Reporting Initiative is an effort to involve state, local, and
                             federal partners in identifying, reporting, and analyzing suspicious
                             activity reports. As an extension of this initiative, DHS launched
                             the If You See Something, Say Something™ campaign in July 2010
                             to encourage citizens to report suspicious activity.

                             Intelligence Officers Provide Expertise and Facilitate Information
                             Sharing

                             The majority of the IOs we interviewed had more than 10 years of
                             experience in the intelligence field; one IO had more than 25 years’
                             experience. IOs can also assist fusion center staff in obtaining
                             security clearances. Once fusion center personnel receive security
                             clearances, they have the ability to access classified information
                             when a legitimate use for such information exists. In FY 2010,
                             DHS issued security clearances to 702 fusion center personnel.

                             Fusion center staff with appropriate clearances can access Secret-
                             level information in DHS’ HSDN. In addition to storing Secret-
                             level information, HSDN can facilitate secure video teleconferences
                             with other HSDN-enabled sites. As of April 2011, SLPO reported
                             that 45 fusion centers had HSDN access, and it plans to deploy 27
                             more HSDN portals by the end of FY 2011.

                             State and Local Program Office Provides Training Opportunities

                             Fusion center analysts are a key component to establishing centers
                             of analytic excellence across the National Network of Fusion
                             Centers. As such, their analytical skills need proper development
                             through training to help centers succeed. IOs coordinate with SLPO
                             to provide various basic training courses, such as Critical Thinking
                             and Analytical Methods, Principles of Intelligence Writing and
                             Briefing, and Open Source Intelligence Practitioners. Additionally,
                             SLPO and the Homeland Infrastructure Threat and Risk Analysis
                             Center coordinate to deliver the joint Introduction to Risk Analysis
                             for Fusion Center Analysts course. 18 Despite a decrease in travel
                             funding, onsite and computer-based training increased fusion center


17
  This slogan is trademarked by New York’s Metropolitan Transportation Authority.
18
  The Homeland Infrastructure Threat and Risk Analysis Center is DHS’ infrastructure-intelligence fusion
center, incorporating analysts from the Office of Infrastructure Protection and I&A. The center creates
actionable risk-informed analysis for federal, state, local, tribal, territorial, private sector, and international
partners.

      DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                                      Page 17
                    staff access to training. At 9 of the 12 centers we visited, IOs
                    arranged or hosted training for fusion center staff. Using DHS
                    resources to organize and offer training for centers with limited
                    funds can improve centers’ analytic capabilities.

                    Training courses offer analysts the opportunity to develop skill sets,
                    especially when analysts do not have prior analytic or intelligence
                    experience. However, completing select courses does not guarantee
                    that analysts nationwide will have the same skill sets. Exhibiting
                    analytical excellence requires mastering many skills, from critical
                    thinking through report writing. Fusion center staff at five sites
                    suggested that DHS select standardized training to enhance
                    communication between analysts at centers nationwide. Having all
                    analysts complete the same courses could ensure consistency in
                    terminology and processes. In addition, fusion center analysts and
                    IOs said that analytical training should be offered more frequently.
                    One IO explained that there are currently too few offerings for basic
                    analytical training, and analysts had to take the three courses over 3
                    years because of limited offerings.

                    IOs also assist fusion centers in achieving baseline capabilities and
                    developing policies that support achieving those capabilities. After
                    announcing the COCs and completing the Baseline Capabilities
                    Assessment, SLPO asked fusion centers to develop privacy and
                    civil rights/civil liberty policies to ensure that citizen rights
                    protections are in place. DHS and the Information Sharing
                    Environment Privacy Guidelines Committee approve all such
                    policies before implementation.

                    Efforts To Promote DHS Component and Federal Partner
                    Participation

                    SLPO leadership has asked appropriate federal departments and
                    agencies, and DHS components to assign a full-time employee to
                    reside in its headquarters office. By May 2011, three FBI and six
                    DHS component staff were assigned to the SLPO full-time. DHS
                    component leadership said that they cannot always assign staff to
                    support a fusion center full-time because of budgetary and staffing
                    limitations. IOs and SLPO coordinate activities and operations with
                    fusion centers to assist DHS components and provide expertise. For
                    example, the Office of Health Affairs, DHS’ principal authority for
                    medical and health issues, detailed a full-time health care liaison to
                    SLPO in November 2010 to ensure that public health issues are
                    being incorporated into fusion center activities.



DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                           Page 18
                    Another example of SLPO outreach and coordination with DHS
                    components, federal partners, and fusion centers is demonstrated
                    during the annual National Fusion Center Conferences. These
                    conferences are key forums for fusion center representatives to
                    receive training, technical assistance, and other support to achieve
                    Baseline Capabilities and meet the goals identified in the National
                    Strategy for Information Sharing. The conferences support the
                    ultimate goal of establishing an integrated National Network of
                    Fusion Centers. DOJ’s Bureau of Justice Assistance – Office of
                    Justice Programs, Global Justice Information Sharing Initiative, FBI,
                    Community Oriented Policing Services, and Bureau of Alcohol,
                                        Tobacco, Firearms and Explosives sponsored the
                                        2011 conference. Additional sponsors were the
                                        Office of the Director of National Intelligence and
                                        Office of the Program Manager – Information
                                        Sharing Environment, as well as DHS. This was
                                        the fifth national conference.

                                         The 2011 conference included speakers from
                                         seven DHS components and the FBI. Speakers
                                         also included representatives from fusion centers,
                                         and an SLPO Fellow detailed from a fusion
                                         center. The SLPO exhibited its level of
                                         interaction and coordination with different federal
                                         departments and agencies, as well as DHS
                                         components, by organizing and planning this
                                         conference. At each conference, DHS also
                                         recognizes a Fusion Center of the Year and a
                                         Fusion Center Representative of the Year. The
                                         National Fusion Center Conference has the most
                                         attendees, but SLPO also hosts regional
                                         conferences that encourage interaction among
                                         federal, state, local, and tribal partners.

                    SLPO also holds monthly teleconferences with fusion center
                    directors and weekly threat teleconferences with fusion center
                    analysts to discuss various analytical issues affecting the National
                    Network of Fusion Centers. We identified two best practices at
                    other meetings. One group’s meetings involved multiple states,
                    while another meeting brought together fusion center supporters
                    within one state.




DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                           Page 19
                    DHS Component Engagement and Support Varies Because of
                    Existing Resources

                    DHS components engage fusion centers in varying capacities
                    because of existing resources. Although many components with
                    field staff consider supporting fusion centers a department-wide
                    priority, available resources determine engagement and resources
                    support. DHS components must balance primary mission needs
                    with other responsibilities. As a result, DHS components support
                    fusion centers at various levels, from providing full-time staff
                    residing at a fusion center to off-site points of contact who are
                    available when needed. Table 2 shows DHS component support to
                    fusion centers as reported to Congress in March 2011.

                    Table 2: DHS Component Field Support to Fusion Centers
                        Component         Full-Time Staff     Part-Time Staff
                           ICE                  27                    7
                           CBP                  14                    2
                           TSA                  15                    6
                          USCG                   1                    2
                          USSS                  1                     2
                          USCIS                 2                     0
                          NPPD                  0                     1
                           Totals                60                  20
                    Source: SLPO


                    As many components with field offices are decentralized and
                    generally have their own budgets from which to hire or deploy
                    personnel, resources not directly assigned to mission-specific duties
                    are limited. Many field staff told us that if funding for fusion center
                    support came from I&A rather than from their field office budgets, it
                    would allow components to invest resources they currently cannot.

           Recommendations
                    We recommend that the Director, State and Local Program Office,
                    Office of Intelligence and Analysis:

                    Recommendation #1: Establish a plan to expand current analytical
                    training opportunities to fusion centers.

                    Recommendation #2: Develop a plan that ensures sustainable
                    component deployments to the National Network of Fusion Centers.


DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                           Page 20
           Management Comments and OIG Analysis
                    We evaluated DHS’ written comments and have made changes to
                    the report where we deemed appropriate. A summary of the
                    department’s written response to the report recommendations and
                    our analysis of the response follows each recommendation. A copy
                    of DHS’ response, in its entirety, is included as appendix C.

                    In addition, we received technical comments from the Department,
                    as well as the FBI, and incorporated these comments into the report
                    where appropriate. DHS concurred with all seven recommendations
                    in the report. We appreciate the comments and contributions made
                    by each entity.

                    Management Response to Recommendation #1: I&A officials
                    concurred with Recommendation 1. In its response, I&A said the
                    that SLPO, in conjunction with the Enterprise and Mission Support
                    Directorate and the Federal Emergency Management Agency’s
                    National Training and Education Division, is identifying analyst
                    training requirements and deploying training courses to address
                    these requirements.

                    I&A has developed new courses offered through various methods,
                    such as deployed training teams, web-based modules, topic-specific
                    conferences, workshops, exercises, and seminars. Courses I&A
                    offers include the Basic Intelligence and Threat Analysis Course,
                    Mid-level Intelligence and Threat Analysis Course, Critical
                    Thinking and Analytic Methods, Principles of Intelligence Writing
                    and Briefing, Vulnerability and Risk Assessment, Writing for
                    Maximum Utility, Open Source Practitioners Course, and the
                    Reports Officer Basic Course. In FY 2012, I&A plans to deliver 90
                    additional courses, including mobile deliveries in all nine fusion
                    center regions.

                    Further, I&A has partnered with the Homeland Infrastructure Threat
                    and Risk Analysis Center to facilitate additional training
                    opportunities and is also sponsoring a workshop to support fusion
                    center analysts and enhance analytic expertise across the National
                    Network of Fusion Centers.

                    OIG Analysis: We consider I&A’s actions responsive to the intent
                    of Recommendation 1, which is resolved and open. This
                    recommendation will remain open pending our receipt of
                    documentation that supports I&A’s newly developed training
                    course offerings.


DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                           Page 21
                    Management Response to Recommendation #2: I&A officials
                    concurred with Recommendation 2. In its response, I&A said that it
                    will establish and lead a working group composed of DHS
                    component personnel to develop a strategy reflecting the
                    departmental and I&A’s strategic plan for fusion centers,
                    department commitments and ongoing efforts, and future
                    engagement plans to support the National Network of Fusion
                    Centers. The SLPO conducted the Requirements for Fusion Center
                    Survey in spring 2011 to collect data regarding fusion center needs
                    for DHS component support and existing DHS resources deployed
                    to fusion centers. Components can use this information to develop
                    policy and budget recommendations to establish a comprehensive
                    fusion center sustainability plan.

                    OIG Analysis: We consider I&A’s proposed actions responsive to
                    the intent of Recommendation 2, which is resolved and open. This
                    recommendation will remain open pending our receipt of
                    information that documents a comprehensive fusion center
                    sustainability plan.


  Efforts To Develop a Department-wide Fusion Center Support 

  Strategy Are Ongoing, but Improvements Are Needed 

           In June 2006, the Department released the DHS Support Implementation
           Plan for State and Local Fusion Centers. This plan identified how DHS
           and state and local authorities would benefit from increased DHS
           involvement and support. As of April 2011, the proposed value to DHS in
           supporting the fusion centers has changed little, but the approach to
           supporting the National Network of Fusion Centers has changed greatly.
           Departmental memoranda, policies and strategy, and component integration
           efforts address DHS’ current strategy to provide coordinated and efficient
           support to fusion centers. However, the plan remains the only consolidated
           description of DHS’ strategy to support fusion centers.

                    Departmental Memoranda Define Recommitment Efforts

                    In July 2009, while serving as the Acting Under Secretary for I&A,
                    the current Principal Deputy Under Secretary for I&A recommended
                    to DHS’ Secretary that the Department recommit to the fusion
                    center initiative. The memorandum, titled Department of
                    Homeland Security State and Local Fusion Center Initiative,
                    identified milestones that were in line with comments obtained from
                    state, local, tribal, and territorial stakeholders. It requested that
                    I&A be restructured to serve the needs of the fusion centers better
                    by understanding their information needs, streamlining the

DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                           Page 22
                    intelligence dissemination and production process, improving the
                    capability of the centers to participate in the intelligence cycle, and
                    analyzing locally generated information for threats and trends.
                    Other milestones included the following:

                        •	 Helping fusion centers achieve and maintain certain baseline
                           capabilities;
                        •	 Increasing the number of DHS personnel assigned to the
                           fusion centers from all components;
                        •	 Improving access to classified information through Secret-
                           level connectivity and clearances;
                        •	 Leveraging and integrating DHS’ unclassified but mission-
                           critical networks and databases to support the centers;
                        •	 Improving partnerships with other federal agencies;
                        •	 Working with the Office of Civil Rights and Civil Liberties
                           and the Privacy Office to ensure that fusion centers
                           strengthen their privacy and civil rights/civil liberties
                           protections;
                        •	 Formalizing partnerships with fusion centers through 

                           memoranda of understanding; and 

                        •	 Adopting a One DHS approach when interacting with fusion
                           centers by strengthening coordination among components.

                    The memorandum described these activities as the minimum
                    requirements for the Department to successfully support the centers.
                    In addition, the memorandum requested that the Secretary direct
                    DHS’ workforce support to the initiative through a communication
                    that would be followed by a management directive and eventually a
                    plan for implementing a DHS strategy to support the National
                    Network of Fusion Centers.

                    In December 2009, the Secretary issued a memorandum titled DHS
                    Policy for Support to State and Major Urban Area Fusion Centers.
                    This memorandum directed all DHS components to align their
                    initiatives, policies, programs, and personnel to support the National
                    Network of Fusion Centers.

                    DHS leadership’s One DHS approach to supporting fusion centers
                    is reflected in a recent communication from the Under Secretary for
                    I&A. In a January 2011 memorandum titled Fiscal Year 2013 DHS
                    Intelligence Enterprise Programmatic Guidance, the Under
                    Secretary instructs all DHS intelligence elements to include
                    supporting the development of fusion center capabilities in their
                    budgets.



DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                           Page 23
                    Policies and Strategy Documents Are Being Developed

                    As of April 2011, through federal interagency efforts, SLPO is
                    drafting a policy titled Federal Resource Allocation Criteria. This
                    draft policy stresses a state’s prerogative to designate fusion
                    centers. However, it states that when a fusion center is to
                    coordinate the statewide receipt, analysis, gathering, and sharing of
                    threat-related information, it has to demonstrate the ability to
                    contribute to the statewide fusion process by meeting baseline
                    capabilities. In addition to explaining that states designate fusion
                    centers, the policy refers to fusion centers as primary fusion centers,
                    recognized fusion centers, and nodes.

                    This draft policy describes the federal strategy for engaging fusion
                    centers in a way that would promote elevated capability and
                    enhance the value and sustainability of the network. It identifies
                    what resources federal departments and agencies will make
                    available to each designation level and the responsibilities the
                    centers have for maintaining certain capabilities at each designation
                    level. It also prioritizes federal resources to reinforce success at
                    centers that achieve baseline capabilities, and to enable success at
                    other centers. For example, primary fusion centers will have a
                    “commitment” from the federal government to provide personnel,
                    connectivity, and other resources in exchange for maintaining
                    baseline capabilities. On the other hand, nodes are encouraged to
                    maintain baseline capabilities and are eligible for resources through
                    the primary or recognized fusion center.

                    At the end of the Baseline Capabilities Assessment, SLPO worked
                    with fusion center directors and federal department and interagency
                    partners to develop the Critical Operational Capabilities Gap
                    Mitigation Strategy. This document describes short- and long-term
                    gap mitigation strategies and identifies actions that DHS will take in
                    the near term to address gaps in all four COC areas and to strengthen
                    privacy and civil rights/civil liberties protections. As of April 2011,
                    SLPO officials were drafting which activities DHS will take to
                    address the long-term gap mitigation strategies.

                    I&A also released its 2011–2018 Strategic Plan in February 2011.
                    Among other mission related goals, this document specifies how
                    I&A will support stakeholders and customers, including state and
                    local partners. It presents goals, objectives, and associated
                    strategies, as well as risks outside of I&A’s control that may hinder
                    achieving those goals.



DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                           Page 24
                          Some goals and activities align directly with the work that SLPO
                          Departmental Coordination Branch officials have identified as
                          necessary or currently under way to enhance center support. For
                          example, one goal in the strategic plan is to “share the information
                          necessary for action.” A corresponding objective is to “standardize
                          information sharing policies across the Homeland Security
                          Enterprise.” 19 Some of the strategies identified to achieve this
                          objective are to “develop standardized policies, processes, and
                          procedures…that provide partners with a clear understanding of
                          how and with whom they can share intelligence and information;
                          formalize information sharing relationships; develop an information
                          sharing framework for the National Network of Fusion Centers; and
                          to increase understanding of roles and missions within the homeland
                          security stakeholder community by providing…guidebooks.”

                          Component Integration Efforts Are Continuing

                          In our December 2008 report, DHS’ Role in State and Local Fusion
                          Centers is Evolving, we identified major challenges associated with
                          internal DHS coordination in supporting the fusion centers.
                          Specifically, support levels were inconsistent across components,
                          communication among components was informal or ad hoc,
                          components were uncertain about their roles, and their field offices
                          had not been fully leveraged to support the fusion center network.
                          Through formalized meetings with components and the formation
                          of a Departmental Coordination Branch, SLPO has made progress
                          in addressing these challenges.

                          Senior Executive Service Fusion Center Advisory Group Meetings
                          Formalize Departmental Discussions

                          In response to the findings in our 2008 report, I&A stated that it
                          would create a working group to produce an “organized and logical
                          strategy that ensures the maximum use of existing DHS resources to
                          meet both fusion center and DHS requirements.” SLPO still engages
                          the components in Senior Executive Service Fusion Center Advisory
                          Group meetings to continue defining the coordinated DHS-wide
                          effort to support the National Network of Fusion Centers. These
                          bimonthly meetings are led by I&A’s Principal Deputy Under
                          Secretary and attended by components’ senior leadership.

                          Most of the attendees interviewed considered the meetings
                          informative and efficient. In addition, attendees were aware that the

19
  The plan defines the Homeland Security Enterprise as all of I&A’s stakeholders in the Department; the
Intelligence Community; the private sector; and state, local, tribal, and territorial governments.

     DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                                 Page 25
                          National Network of Fusion Centers was a priority of the Secretary,
                          and also were aware of what SLPO wanted from the components.

                          At these meetings, senior executives discuss their ongoing efforts to
                          support fusion centers and the issues fusion centers are facing,
                          including security clearances for state and local personnel, baseline
                          and critical operational capabilities, and privacy and civil
                          rights/civil liberties policies. Component representatives also have
                          opportunities to discuss their contributions and interactions with the
                          fusion centers, as well as information sharing and coordination with
                          different federal entities. For example, Office of Infrastructure
                          Protection officials briefed the Senior Executive Service Fusion
                          Center Advisory Group on how they engage the fusion centers
                          directly and through their Protective Security Advisor program. 20
                          An SLPO official explained that the meetings rotate among the
                          components to increase component participation.

                          Through these meetings, SLPO can identify future DHS component
                          resources to enhance the One DHS approach, and ensure alignment
                          with Information Sharing Environment programmatic guidance. 21
                          In addition to discussing component contributions, SLPO is able to
                          include components in its planning by presenting timelines for
                          certain projects, identifying topics for fusion center conferences,
                          and discussing draft policies such as the Federal Resource
                          Allocation Criteria.

                          Presenters at Senior Executive Service Fusion Center Advisory
                          Group meetings reiterate how DHS will support centers in a
                          coordinated way. In these meetings, SLPO’s cognizance and
                          responsiveness to field issues are best illustrated. For example, in a
                          recent meeting discussions included training intelligence analysts to
                          craft products that can be shared with fusion center personnel
                          without clearances. Fusion center directors and senior analysts also
                          raised this issue during our site visits. These officials explained that
                          threat information they received was useful only when it could be
                          passed to their first responders and emergency managers, who may
                          not have clearances. Therefore, creating documents that separate
                          classified from unclassified information but provide actionable
                          intelligence is critical.



20
   Protective Security Advisors are Office of Infrastructure Protection employees who represent DHS in state
and local communities as experts in critical infrastructure protection and security.
21
   The Program Manager for the Information Sharing Environment issues government-wide guidance for the
development and proper operation of the Information Sharing Environment based on priorities and direction
from the White House. www.ise.gov

     DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                                  Page 26
                          State and Local Program Office Establishes Departmental
                          Coordination Branch

                          As part of its restructuring to meet the needs of the fusion centers,
                          SLPO created the Departmental Coordination Branch. One of the
                          past shortcomings of the department’s efforts to support fusion
                          centers was inconsistent coordination among components. SLPO
                          leadership stressed that even though the fusion center initiative was
                          led by I&A, it was a departmental effort, and it was imperative that
                          all components be engaged, as appropriate, and that components
                          allocate resources to support the National Network of Fusion
                          Centers. SLPO requested that components detail a liaison to the
                          Departmental Coordination Branch to ensure coordinated
                          management of DHS assets in the centers. This branch also
                          provides support to field offices that want to engage more with
                          fusion centers.

                          A branch accomplishment is the DHS Resources to Fusion Centers
                          flip book, which was in draft as of April 2011. It is intended to
                          provide information to stakeholders on each DHS component, their
                          programs, mission, and resources, as well as a point of contact, such
                          as a tip line or electronic mailing list address. 22 Another
                          accomplishment is the January 2011 Federal Resource Inventory,
                          which identifies all human, educational, and technological assets that
                          DHS and other federal stakeholders have in the field that could be
                          leveraged to support fusion centers. In addition, SLPO is working
                          with DHS components to determine which fusion center locations
                          and functions best align with component missions and would add the
                          most value to their operations.

                          SLPO is also soliciting comments from fusion centers regarding
                          which DHS components and federal departments and agencies they
                          would find most useful in their centers. However, many fusion
                          centers do not have a clear understanding of DHS components’
                          capabilities, missions, and information collection areas.

                          As SLPO surveys the centers, there is an opportunity to frame
                          questions regarding component resources based on information
                          needs and projects, rather than on component or subcomponent
                          titles. By focusing on needs, fusion centers can articulate the skills
                          and information sets they require, which will allow the components
                          to identify individuals or offices with the appropriate expertise and

22
  An electronic mailing list allows a single “cover” email address to send incoming messages to a set of
email users, which may be changed. This provides continuity similar to a tip line number that may remain
the same for years, but may be answered by different operators over that time.

     DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                                 Page 27
                    access to relevant information. This will also highlight to
                    components the type of work being done at the fusion centers and
                    help DHS components better assess which locations may add value.
                    As a result, DHS may be able to satisfy multiple needs with one
                    individual.

                    Challenges Continue in Component Support to Fusion Centers

                    Although I&A has improved component engagement, and
                    components have in turn increased their support of the National
                    Network of Fusion Centers, challenges remain. For example, not
                    all components have detailed a representative to the SLPO. As of
                    April 2011, ICE, CBP, the Office of Operations Coordination and
                    Planning, and the Office of Health Affairs are represented, and the
                    Federal Protective Service and the U.S. Secret Service have
                    identified but not yet detailed individuals to represent their
                    components. SLPO officials maintain that if components are not
                    ready or able to increase their presence in the fusion centers, they
                    should have a representative in the SLPO to increase awareness of
                    the fusion centers and determine how components can best support
                    the centers.

                    In addition, the Departmental Coordination Branch has encountered
                    difficulty in getting information from DHS field components about
                    resources already deployed to support fusion centers. One
                    headquarters component official described sending an email message
                    to the office responsible for tasking the component’s field offices.
                    The message included a list of questions, the answers to which would
                    help determine to what extent field offices in the component were
                    supporting the centers. Months later, still awaiting a response, the
                    official followed up and was told that the questions were not
                    forwarded to the field because the purpose was unclear. The official
                    described the situation as unacceptable, but believed that many
                    components have difficulty surveying their own field offices on
                    interactions with fusion centers. This challenge often causes
                    misunderstandings and underestimates the extent to which
                    component field operations support fusion centers.

                    Currently, component support to fusion centers is measured by the
                    number of personnel detailed to fusion centers. For example, in
                    quarterly updates to Congress, SLPO provides information
                    regarding the number of component personnel detailed to each
                    fusion center. However, SLPO officials explained that not all
                    fusion centers need full-time deployed personnel.



DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                           Page 28
                    In some cases, established relationships with points of contact from
                    certain components would be sufficient to provide reachback for the
                    fusion center and the component. Although some DHS components
                    provide this reachback capability to fusion centers, the quarterly
                    updates to Congress provide information only on full-time or part-
                    time detailees. For example, even though the March 2011 quarterly
                    update does not mention any Federal Protective Service personnel
                    located at fusion centers, all their Regional Intelligence Analysts
                    have at least liaison interaction with fusion centers in their areas of
                    responsibility. In one area, the Regional Intelligence Analyst has
                    formal monthly communication with I&A’s IOs, as well as more
                    regular and frequent informal communication. Another Federal
                    Protective Service Analyst described daily interactions with some
                    centers, whether in person, by email, or by telephone, as well as
                    weekly and bi-weekly communications with other centers. In
                    another example, USCG has three personnel detailed at least part
                    time to fusion centers. However, USCG field offices interact at
                    varying levels with 49 fusion centers, as well as other state and
                    local intelligence centers.

                    Conversely, a large component presence at a fusion center does not
                    always reflect fusion center support. For example, at one fusion
                    center, there are five representatives from one component.
                    However, only one supports fusion center activity; the other four
                    work on a separate, component-specific initiative. In some other
                    cases, fusion center officials believed the component representative
                    assigned was not always appropriate for his or her role at the center.

                    Field Offices Need Guidance From Component Headquarters
                    Offices

                    Although DHS components are aware that cooperation with and
                    support of fusion centers is a departmental priority, none of the
                    component field staff we spoke with recalled seeing formal written
                    instructions or guidelines for supporting fusion centers from their
                    headquarters management. In some cases, there was an email
                    instruction to make contact or consider building a relationship; in
                    other cases, component management routinely reiterated the
                    instruction in staff meetings or on conference calls.

                    Most component field staff we spoke with agree that formal
                    communication from their headquarters leadership, which instructs
                    on options, requirements, guidelines, or expectations for such
                    support, would help identify the best resources available and ensure
                    compliance with expectations. Such guidance could help explain to
                    components the benefits of these relationships and the advantages

DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                           Page 29
                          of leveraging fusion centers as force multipliers to potentially
                          increase field office efficiency.

                          Leveraging the FBI’s Fusion Center Engagement Strategy Could
                          Help Determine Component Coordination and Support

                          These departmental challenges make it difficult to catalog accurately
                          DHS’ current component field support to fusion centers. For our
                          review, we leveraged the FBI’s efforts as an example of a best
                          practice to inform DHS component support and information sharing
                          with the National Network of Fusion Centers.

                          To standardize its approach to interacting with fusion centers, the
                          FBI Fusion Center Integration Unit (FCIU) first evaluated its field
                          offices’ engagement with fusion centers. The evaluation included
                          engagement with fusion centers that were not currently designated,
                          but with which a partnership was mutually beneficial. The FCIU
                          defined three levels of fusion center engagement: Liaison, Basic,
                          and Enhanced. Figure 5 shows these engagement levels, which
                          describe increasing interaction and support.

Figure 5: FBI Definitions of Different Engagement Levels at Fusion Centers




Source: OIG Analysis of FBI Documents



     DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                                Page 30
                    FBI field offices learned about the process via videoconference
                    presentations, and they implemented a self assessment using a
                    survey instrument with detailed written instructions. The FCIU
                    guided field offices in creating plans to increase interaction with the
                    fusion centers in their areas of responsibility, as appropriate,
                    including identifying limiting issues that were hindering
                    engagement. The FCIU and FBI headquarters then developed a
                    mitigation plan to help the field office address these issues.

                    Working with the FCIU to determine lessons learned from the
                    FBI’s survey, SLPO’s Departmental Coordination Branch could
                    similarly assess DHS component field offices regarding their fusion
                    center engagement. This would allow SLPO to enhance its support
                    of field office engagement by increasing awareness of fusion center
                    operations, assisting field offices in leveraging existing resources,
                    and detailing their need for additional resources.

                    A Performance Measurement Framework Is Being Developed

                    DHS’ strategy should also stipulate what performance measures
                    SLPO uses to determine whether the Department has achieved its
                    mission of strengthening and supporting the National Network of
                    Fusion Centers. I&A’s 2011–2018 Strategic Plan already identifies
                    some potential performance measures meant to start dialogue
                    among stakeholders.

                    As of April 2011, SLPO was working with DHS components to
                    identify measures for use in determining whether SLPO has been
                    successful in supporting fusion centers. In addition, SLPO plans to
                    evaluate the National Network to determine what gaps may still
                    exist and to test whether actions taken by DHS and fusion centers
                    have improved their ability to function as intended. These
                    evaluations would assist DHS and its federal partners in allocating
                    resources efficiently, and would demonstrate fusion center value,
                    which could further enhance center sustainability.

           Recommendations
                    We recommend that the Director, State and Local Program Office,
                    Office of Intelligence and Analysis:

                    Recommendation #3: Develop and publish a strategy that reflects
                    the department’s commitments, ongoing work, and plans for future
                    engagement to support the National Network of Fusion Centers.


DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                           Page 31
                    Recommendation #4: Survey component participation at fusion
                    centers to ensure that the department’s presence is appropriately
                    reported, and align results with fusion center needs.

                    Recommendation #5: Work with DHS component leadership to
                    develop and issue written guidance that ensures requirements and
                    expectations for supporting the National Network of Fusion Centers
                    are communicated and implemented.

           Management Comments and OIG Analysis
                    Management Response to Recommendation #3: I&A officials
                    concurred with Recommendation 3. In its response, I&A said that it
                    is leading a working group of DHS components to develop a
                    strategy that reflects strategic plan alignment, commitments and
                    ongoing efforts, and future engagement to support the National
                    Network of Fusion Centers. The SLPO established the Department
                    Coordination Branch, which is staffed with DHS component
                    detailees, in an effort to continue engaging DHS components and
                    deploying representatives to fusion centers. I&A also engages DHS
                    component leadership through the Senior Executive Service Fusion
                    Center Advisory Group meetings and the Homeland Security
                    Intelligence Council to present the needs and concerns of fusion
                    centers.

                    OIG Analysis: We consider I&A’s actions responsive to the intent
                    of Recommendation 3, which is resolved and open. This
                    recommendation will remain open pending our receipt of
                    documentation that a strategy to support the National Network of
                    Fusion Centers has been developed and published.

                    Management Response to Recommendation #4: I&A officials
                    concurred with Recommendation 4. In its response, I&A said the
                    that SLPO conducted the Requirements for Fusion Center Survey in
                    spring 2011 to identify existing DHS component support to fusion
                    centers. The survey also addressed fusion centers’ need for DHS
                    component and interagency personnel, system access, and training.
                    I&A validated survey responses received from the majority of
                    fusion centers and presented the results to DHS component
                    leadership at the June 2011 Senior Executive Service Fusion Center
                    Advisory Group meeting. The results provided DHS component
                    leadership with an understanding of fusion center needs and can be
                    used by components to target fusion center support and develop
                    policy and budget recommendations in future years.



DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                           Page 32
                    In addition, the SLPO developed the Information Sharing
                    Environment Guidance: Federal Resource Allocation Criteria
                    policy, which defines objective criteria and a coordinated approach
                    for prioritizing the allocation of federal resources to fusion centers.
                    The policy will ensure that federal support to fusion centers is
                    effective, efficient, and coordinated across DHS and interagency
                    partners.

                    OIG Analysis: We consider I&A’s actions responsive to the intent
                    of Recommendation 4, which is resolved and closed. No further
                    reporting is necessary.

                    Management Response to Recommendation #5: I&A officials
                    concurred with Recommendation 5. In its response, I&A said that it
                    envisions that DHS components would follow similar protocols
                    established for I&A personnel, such as maintaining an official
                    supervisory structure and receiving programmatic guidance from
                    their organizations, while acknowledging the I&A IO as the team
                    lead at the fusion center.

                    To codify this approach, I&A will establish a working group of
                    DHS component representatives in the first quarter of FY 2012.
                    The group will consider Memorandum of Understanding and
                    Agreement and Concepts of Operation used by different
                    components to define the roles and responsibilities of deployed
                    personnel to fusion centers before establishing documentation of
                    deployed assets.

                    OIG Analysis: We consider I&A’s proposed actions responsive to
                    the intent of Recommendation 5, which is resolved and open. This
                    recommendation will remain open pending our receipt of written
                    guidance that establishes requirements and expectations for
                    supporting the National Network of Fusion Centers.


  Opportunities Exist To Improve Intelligence Officer Deployments
           Deploying IOs to fusion centers has benefited the National Network of
           Fusion Centers and the Department. Along with subject matter expertise
           and analytical guidance, IOs provide outreach, coordinate information,
           access additional data sources, and provide a single point of contact for
           DHS operations and resources. The majority of fusion center leadership
           interviewed said IOs are a valuable resource. In addition, components
           without deployed center personnel often use IOs as their point of contact
           with fusion centers. However, some DHS and fusion center staff said that


DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                           Page 33
           the IO selection process could be improved, and that IOs need additional
           training and guidance.

                    Intelligence Officer Selection Process and Training Should Be
                    Enhanced

                    To support fusion centers, IOs must possess knowledge of DHS
                    programs, operations, and resources, as well as state and local
                    issues that concern the fusion center officials they serve. Several
                    fusion center officials said that centers benefit more from IOs who
                    understand all DHS components and available resources, grants and
                    requirements, and information systems. IOs familiar with the state
                    and local areas and issues are valued as well, but for different
                    reasons. IOs who have significant local perspectives, knowledge,
                    and contacts may be better attuned to specific needs of a fusion
                    center. Leadership at several fusion centers said that they want to
                    be involved or have the local perspective represented in the IO
                    selection process.

                    Although attaining comprehensive knowledge of DHS programs
                    and operations might be difficult, efforts to provide deployed IOs
                    with additional training on DHS missions, operations, and resources
                    would enhance their value to fusion centers and to the Department.
                    Several fusion center officials said that IO orientation training is too
                    limited in scope to provide a sufficient understanding of component
                    interrelationships, and the Department’s operations and functions.
                    IOs who had worked in I&A before being deployed to fusion
                    centers suggested that a rotation within SLPO would provide new
                    IOs a better understanding of DHS operations and the National
                    Network of Fusion Centers.

                    Many IOs have access to various component information systems,
                    but have not received specific training on those systems. Without
                    appropriate training, IOs could potentially misuse or improperly
                    interpret data in these systems. Therefore, training is critical when
                    an IO has access to a component’s system because IOs must protect
                    the component’s information and interests. In addition, one
                    component official questioned whether the IO’s role was to have
                    access to all DHS systems, and said that an IO should be able to
                    leverage existing component field resources. Another DHS
                    component official said that even with traditional training courses, an
                    IO would still require lengthy on-the-job training, because the
                    component’s system generally was not flexible or user-friendly.

                    When more experienced IOs mentor new IOs, the new IOs develop
                    more realistic expectations regarding a center’s role and

DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                           Page 34
                    capabilities. Mentoring also provides an established relationship to
                    leverage when necessary. As IOs can work with a variety of fusion
                    center staff, from briefing senior leadership to mentoring junior
                    analysts, several IOs said that it was helpful before deploying to
                    gain an understanding of how another IO makes those diverse
                    relationships work efficiently and effectively. IOs who participated
                    in short rotations with other fusion centers reported gaining
                    additional perspectives and a better understanding of the differences
                    among centers. Several IOs said this experience helped them be
                    more effective in their own centers.

                    Roles, Responsibilities, and Expectations Need Better Definition

                    At some fusion centers, IO roles and responsibilities are unclear,
                    causing misunderstandings among both DHS and fusion center
                    staff. For example, some fusion center directors believed that IOs
                    would train analysts or write analytical products, while other
                    directors anticipated that their IOs would have expertise in specific
                    topics of interest to the state, such as maritime or border issues.
                    Defining roles and responsibilities would make relationships among
                    IOs, components, and fusion center staff more productive and
                    improve information sharing.

                    In some cases, IOs were deployed to fusion centers with
                    instructions to do whatever the center needs to assist in developing
                    its baseline capabilities. However, each center has different needs
                    and requires different skill sets. Because some fusion centers are
                    nascent, their needs may include activities for which an IO may not
                    be well-suited, such as developing privacy and civil rights/civil
                    liberties policies. As fusion centers are owned and managed by
                    state and local governmental entities, IOs can encourage or
                    recommend certain actions to achieve baseline capabilities and
                    analytical products, but IOs cannot require that certain actions and
                    processes be implemented.

                    In addition to supplementing staff and operations, most fusion
                    center leadership expect IOs to be able to identify and obtain
                    information from any DHS component. As a result, fusion center
                    leadership may infer that an IO has authority to direct other
                    component representatives. Further, component headquarters and
                    field representatives expect IOs to understand the data collection
                    and missions of each component, so that the IO can evaluate a
                    center’s data requests and identify requests that are not feasible.

                    Memoranda of Understanding (MOU) can be useful in defining
                    roles and responsibilities, performance measures, and expected

DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                           Page 35
                    support and interactions between DHS personnel and fusion center
                    staff. As of April 2011, most MOUs between I&A and fusion
                    centers only cover limited IO roles and responsibilities and do not
                    specifically define assigned duties. Although MOUs can help to
                    formalize DHS’ relationship with fusion centers, standardizing IO
                    and component detailee roles across the National Network of
                    Fusion Centers would be challenging. Rather, it is necessary to
                    develop a process that identifies areas of agreement, outlines fusion
                    center needs, communicates DHS’ interests in the area, and defines
                    the IO roles, responsibilities, and capabilities. Such a process
                    should not standardize the roles and responsibilities across the
                    National Network of Fusion Centers, but rather should ensure that
                    roles and responsibilities are identified and agreed upon.

                    Communicating with the fusion centers and becoming more
                    familiar with each center’s functions, operations, relationships,
                    mission, and capabilities will help define roles, responsibilities, and
                    expectations better.

           Recommendations
                    We recommend that the Director, State and Local Program Office,
                    Office of Intelligence and Analysis:

                    Recommendation #6: Expand the Intelligence Officer orientation
                    and training process to include a formal mentoring program where
                    Intelligence Officers can network and discuss issues and concerns
                    with peers.

                    Recommendation #7: In coordination with fusion center
                    leadership, develop and document a process to identify and define
                    roles, responsibilities, and expectations among Regional Directors
                    and Intelligence Officers.

           Management Comments and OIG Analysis
                    Management Response to Recommendation #6: I&A officials
                    concurred with Recommendation 6. In its response, I&A said that it
                    established a mentoring program in March 2010 with the
                    publication of the State and Local Program Office Sponsorship
                    Program. The program establishes procedures for assigning
                    sponsors to deployed IOs and Regional Directors with less than 12
                    months of field experience. Sponsors will be assigned to provide
                    guidance and support during pre-arrival, on-boarding, and initial
                    deployment for up to 12 months. SLPO provides IOs and Regional
                    Directors opportunities to network and discuss issues and concerns

DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                           Page 36
                       during regularly scheduled and ad hoc conference calls,
                       conferences, and off-site visits.

                       OIG Analysis: We consider I&A’s actions responsive to the intent
                       of Recommendation 6, which is resolved and closed. No further
                       reporting is necessary.

                       Management Response to Recommendation #7: I&A officials
                       concurred with Recommendation 7. In its response, I&A said that
                       roles, responsibilities, and expectations for deployed IOs and
                       Regional Directors are defined in position descriptions and in
                       various internal documents.

                       IOs leverage fusion center access to the Intelligence Community’s
                       capabilities and resources, help fusion centers develop their Critical
                       Operations Capabilities, and assist the centers through the
                       intelligence cycle. IOs also represent DHS and provide support to
                       federal, state, local, tribal, territorial, and private partners.

                       Regional Directors manage the activities of all DHS/I&A personnel
                       within their regions, and assist senior state and local leadership with
                       developing their fusion process. Regional Directors develop and
                       lead regional initiatives that support fusion centers and provide
                       regular input and support to SLPO headquarters when applicable.
                       In addition, Regional Directors are responsible for relationship
                       development, promoting cohesion and collaboration, advocacy,
                       mentoring and mediation, and administrative support.

                       With the established process to identify and define IO and Regional
                       Director roles, responsibilities, and expectations, I&A incorporates
                       input from fusion center leadership whenever appropriate.

                       OIG Analysis: We consider I&A’s actions responsive to the intent
                       of Recommendation 7, which is resolved and open. This
                       recommendation will remain open pending our receipt of position
                       descriptions and other internal documentation that define IO and
                       Regional Director roles, responsibilities, and expectations and also
                       ensure input from fusion center leadership wherever appropriate.


Conclusion
     With the DHS Secretary’s announcement to recommit department-wide support to
     the National Network of Fusion Centers, I&A, SLPO, and DHS components have
     increased their efforts to coordinate and enhance support and information sharing
     with fusion centers. SLPO continues to improve its partnership with federal, state,

   DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                              Page 37
  and local entities, and fusion centers have demonstrated their value in local and
  interstate criminal and terrorism related investigations. Appendix E includes some
  examples of fusion center activities.

  Improvements are needed, however, to enhance SLPO field deployments and DHS
  component support. Both DHS and state and local stakeholders need a National
  Network of Fusion Centers capable of gathering, receiving, analyzing, and
  disseminating information. Centers must be capable of providing relevant
  situational awareness and strategic analytical products to DHS. In turn, DHS
  components and other federal partners need to understand how their missions align
  with those of the fusion centers. With a clearly defined and documented DHS
  strategy, the Department can enhance its efforts to support the centers and gauge
  appropriate funding, personnel, training, and additional resources.




DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                           Page 38
Appendix A
Purpose, Scope, and Methodology

                       We assessed DHS’ efforts to coordinate and enhance its support
                       and information sharing with fusion centers as part of our Fiscal
                       Year 2011 Annual Performance Plan. Our review focused on
                       DHS, I&A, and SLPO efforts to fulfill the department’s goal to
                       achieve a renewed, coordinated, and enhanced information sharing
                       and communication capability with fusion centers.

                       Our objectives were to determine whether (1) the SLPO satisfies
                       the intent of DHS’ recommitment to the National Network of
                       Fusion Centers; (2) whether planned SLPO efforts ensure
                       coordinated support of DHS and its components to provide needed
                       information and resources to fusion centers; and (3) whether any
                       functional or organizational challenges exist within DHS that
                       hinder its effective support to fusion centers.

                       To accomplish our objectives, we conducted interviews with
                       federal officials, and state and major urban area fusion center
                       personnel, and reviewed and analyzed related documents and data.
                       Specifically, we interviewed officials and staff from I&A, Office
                       of Operations Coordination and Planning, Office of Policy, Office
                       of Civil Rights and Civil Liberties, the Privacy Office, National
                       Protection and Programs Directorate, CBP, TSA, ICE, U.S.
                       Citizenship and Immigration Services, USCG, the Federal
                       Protective Service, and the U.S. Secret Service.

                       We also met with officials from DOJ, including the FBI and the
                       Bureau of Justice Assistance, to determine DOJ’s support to the
                       National Network of Fusion Centers and to leverage its best
                       practices.

                       To assess the effectiveness of DHS support to state and major
                       urban area fusion centers, we conducted site visits and interviews
                       at the following fusion centers and state and local intelligence
                       entities:

                            •	 Colorado Information Analysis Center, Centennial, 

                               Colorado

                            •	 Dallas Police Department Fusion Center, Dallas, Texas
                            •	 Delaware Information and Analysis Center, 

                               Dover, Delaware 

                            •	 Maryland Coordination and Analysis Center, Baltimore,
                               Maryland
                            •	 Miami-Dade Fusion Center, Miami, Florida
                            •	 North Central Texas Fusion Center, McKinney, Texas
                            •	 Northeast Ohio Regional Fusion Center, Cleveland, Ohio

   DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                              Page 39
Appendix A
Purpose, Scope, and Methodology

                            •	 Ohio Strategic Analysis and Information Center, 

                               Columbus, Ohio 

                            •	 San Diego Law Enforcement Coordination Center, San
                               Diego, California.
                            •	 Texas Fusion Center, Austin, Texas
                            •	 Washington State Fusion Center, Seattle, Washington
                            •	 West Virginia Intelligence Fusion Center, Charleston,
                               West Virginia

                       We held discussions with officials from the Government
                       Accountability Office, the Congressional Research Service, and
                       the National Fusion Center Association to gain their perspectives
                       on DHS’ support to the National Network of Fusion Centers.

                       In addition, we examined fusion center guidelines and procedures,
                       including applicable laws, regulations, and policies. We also
                       assessed the resources DHS and its operational components
                       provide to fusion centers, including quarterly updates submitted to
                       Congress and policies and program information.

                       Our fieldwork began in October 2010 and concluded in April
                       2011. We initiated this review under the authority of the Inspector
                       General Act of 1978, as amended, and according to the Quality
                       Standards for Inspections, issued by the President’s Council on
                       Integrity and Efficiency.




   DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                              Page 40
Appendix B
Recommendations

                       We recommend that the Director, State and Local Program Office,
                       Office of Intelligence and Analysis:

                       Recommendation #1: Establish a plan to expand current analytical
                       training opportunities to fusion centers.

                       Recommendation #2: Develop a plan that ensures sustainable
                       component deployments to the National Network of Fusion
                       Centers.

                       Recommendation #3: Develop and publish a strategy that reflects
                       the department’s commitments, ongoing work, and plans for future
                       engagement to support the National Network of Fusion Centers.

                       Recommendation #4: Survey component participation at fusion
                       centers to ensure that the department’s presence is appropriately
                       reported, and align results with fusion center needs.

                       Recommendation #5: Work with DHS component leadership to
                       develop and issue written guidance that ensures requirements and
                       expectations for supporting the National Network of Fusion
                       Centers are communicated and implemented.

                       Recommendation #6: Expand the Intelligence Officer orientation
                       and training process to include a formal mentoring program where
                       Intelligence Officers can network and discuss issues and concerns
                       with peers.

                       Recommendation #7: In coordination with fusion center
                       leadership, develop and document a process to identify and define
                       roles, responsibilities, and expectations among Regional Directors
                       and Intelligence Officers.




   DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                              Page 41
Appendix C
Management Comments to the Draft Report


                                                                                 IJ.S.   O( ~I.!Htment nf Ilonu'1ud   S(,(,lIri~
                                                                                 W!Uhin~tun,     JJ(' 10S28




   Carllon L tv[,,"n
   As:-.islant In~)J~etor G~lleral tor Inspections
   1)1 IS Oftieo of Inspector Genom[
   1120 VelTnont ""\ vc r\ vV
   \\ia, hin),'ion, U.c. 200n"

   R I': Draft Rc port O[G-I (J-(JJ 5- ISP-[&A , DIIS ' Ejlurls to Co()rt/il1(1{c alld F.lllwllce its S upport
         and iJ!/ol'lmrtiof'l Sha ring ~' fi(h ,,,"lis/on Cel1l1!rs

   Dcar' Mr. Mann :

   The Ucpallll1cnt of Ilomcla nd SoclIrity (Dcpartmcnt!DHS) apprecia[c, the oppollunit)' to rel'iew
   and comment on the Office of Inspector General (OIG) draft report for OIG-1O-035-ISP- I&.>\ ,
   DH.r:," F..ffh r/s to Coordinate a nd 1~"nh a n C(J ils Support OJld I,ljormult'oll ,)'/uu"jng wilh Fils ion
   Cellfers , The De pallmcnt, pmlicu[arly the Ofticc of Intelligence and Anal ysis 1I&,\), is actiwly
   resolvi ng the is'i llt..'s itic:nti fi t!d in lhe r~port.

   The Departlllt.'IlI 'S rl'sponscs to each (lfthe recommendations from the draft report can             I)f,,~   fouud
   bot"w:

   \V e recommen d that th e Director, State ,lnd Locnl        Pr o~ ram Offi c c~   Office of Intellige nce
   a nd Analys is:

   n,ccnmmcndalioll # 1: Esrahlish a phlll to expand       CUH~nt   anolytical lrainillg opportllnilic:o; to
   fll;.;iuTi cf.jltlr.:rs,

   I>II S [{osllonse: Con cur. I&A has recognized the need to impicment " lugh quality and
   standardi zed training program to support state and local analysts in fusion centers. particularly
   within the fh1l11ework established by the I&A strategic pl.n. Accordingl y, I&A h • • initiated a
   strategic approach to identifyi ng analyst training requirement s and deployi ng h'aining courses to
   addres.s th~.se rt!4uirements througll effOlt~ by I&A '5 State (lnd Local Program Oft1cc (S LPO)
   and Enterpri,e and Mission SuppOll Directorate, and in pa.tnership with the Federal Emergency
   \1anagcment Agency's Nation.1 Training and Education Divi, ion (NTED). [&A has developcd
   nt!\\' COll!);!::!:, and C()lltent and expanded its capacity to provide qualit y analyt ical training to
   support (he maturaLion of the National )J"etwork of Fusion Centers (""ariona! Nct\vork), T his
   training is accumplished through " va riety ofmeehanisms, including trainin g team, deployed to
   the field , web-hased tnndliles" and tOpic- speci fit: conferences, workshops, exercises, and
   seminars, I&A designed activities to assist the l\' ationall\'etwork with improving its capabilities
   in accord;mce with nation,al policy and doctrine, including the NtltionaJ Strategy for b~f()rma!io H




   DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                                     Page 42
Appendix C
Management Comments to the Draft Report

                                                                                                                                -2-


    Sharing. the Fusion          ('elller (~·!lidelin{'s.
                                                     and the HaseJim' Capuhilifiesjhr Slale and Major l./rban
   ..Irea FlI.,loll Cell/ers.      Specificall y, 1&,\ delivered these training efforts to help fu sion centers
    build analyti cal capabi lities 10 achieve Critical Operaljollal CuptibiLi~~; 2: Analy=e. which is
    ddined as " tho abilil y 10 assess local implications o[lhr.a' infomlation through the use or a
    lo nnal ri sk asse~slT1ent process."

    1&.'1. ', suite or,omse, include: the Bilsi, Intelligence Mnd Threat Analysis Course, Mid-level
    Intelligence and Threat Analysis Course, Critical Thinking and Analytic Methods, Principle, (If
    ImcJligcnce Writing and Llriefing, Vulnerability and Threat Risk Assessment. Writing for
    .\Iaximum Utility, Open Source Practitioners Course, and RepOIts Officer Llasic Course. field
    training del i,'ered in Fiscal Years (FY) 20 I 0 and 2011 has rcached pcrsollllcl from the vast
    mMjority offusion ,enlefS. In fY 2012, I&A plans to deliver an additional 90 courses, including
    mobile deliveries ill all nine r'tl ~ i on Center Regi ons.

    I&A hu:'i also parhlcrcd \.\.'ith (hI.! Horm. . land Inli"us1ruClUre Threat and Rt ~ k Analysis \t'-nter to
    t:lci Ji tat e additional t.rai ni ng 0PPCli1Utl iti e:5. i Dcl udi ng del iverie~ of an IJlfrodlt cihlll 10 Hi~" \
    A lla (r-...iOis for I· ·//.~j oll ("nllrl' A It(1~l'SfS Co urse ~ lI1d pilot deliveries of all h llef'l nedi(l[(' IVsk A Jlo(rsis
    COltJ"s('.        Adcli tio nally: in \lovcmbcl' 20 I I, J&/\ is sponsoring a i\atinnal tu sion Center Analyti c
    \Vo rk ~h() p f\) ~Hpport ti l~ioll c.enlt:r al1nly~t i:i and ro enhance necessary aJwlj1i<.' cxpct1isc across
    the N:lIion al r\ctwork.

    1311sc'\l   Oil   the actiolls listed IIbove, I&A believes that it , analytical training program has answered
    the spirit of thi s rccoITllllcndltlion ami requests that il he doscu.

    I{eco mmelldalion #2: [)evelop a plan that ensures sustainable component deployments to tilo
    l1 i]1 jOllal   network of fusion t:t!ntcr.;.

   DHS Response: Conc u r. 1&1\ ha, not yet <level oped a plall detailing tbe DH S Component
   (Component) efforts necessary for sustainable Component deployments to tbe ~atiollal J\etwo rk.
   Hm "''C\i(;T, \. . . c \vill Jcv d op i.Hld lci1d.it \vorking gro up composed o f"CornponL:nt mt:rnhcrs lo
    J~\'clo p a Slratl:gy that reflects Dcpartlncmal and 1& /\ stratC!gic plan ali gnment.. Department
   commi tments and ongoing t;!! T(.lrlS, and future engagt!m ent plans to Slipporllht' NaliullClI ~elwo rk .
   An essential pOItioll of thi s Dcpmll1lcnt-\\o'id(: strategy \\o'ill be fln implementati on plan for
   sustaining Component deployments to the fu sion centers. J&i\ \vi ll present the working grou p
   com':l:pl and ~tratc gy dCI,.'clopIncTH at the nex t SES .:\dvi."ior y Group meeting during the ft n;t
   quarter. FY 2012 to obtain Component suppon. The SES Ad visory Group membership includes
   ComporH': Ill leadership and the Principnl De puty Ulldcrsccrclary of Intelligence and l\naly si ~,
   and the group meets regularl y to discuss [)epanll1ellt-wide efforts in suppol1 affusion cellters.
   Shuuld addit ional support or (,;on ~i dt;:n1.1i(Jn be needed fnJm ('om ptlllent l~adr.:r~h i p, th e working
   group concept and st rategy may al so be presented to the IloIlleland Security Int ell igence Council
   (lISIC).

   ,\:;. a crilical first step to effectively developing a Component dcplo)111cnt stlstai llability p laTl~
   SLPO I..:onduch:::u lhl,..~ Rl'qlli r c l// ('nls.1i)I" Fusion Center Sun'(:v 111 llH.~ spring or ~O ll to colkcl data
   [lnd de1Lmllinc appn.1pri alc plan rcquircm(':nt~.  TIw :-.urvcy do e-luncnlcd cxi~ting CompollcIH
    resource, deployed to fusi(lll cellter,_ and the re,ults provided Components with an cnhance<l




   DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                                              Page 43
Appendix C
Management Comments to the Draft Report

                                                                                                                    -J-


   DCp"l1lllcnt-w ide understandi ng of fusion center needs for Component support This
   information call be u5cd by Compon~nt leadership in allocating support to fU:':inn centerS and in
   developing the associated policy and budget recommendations in future years, whieh will be
   us~cl to devdop a ('omprehellsive Component ::;ustainability plan to suppmt the Natio nal
   Ne twork .

    Recollllllendation #3 : Develop and publish" strategy that [elk",ts the dOp"l1men!'s
   cOlllmitments. o ngoing \...·orl.:.. and plans for futul'e engagement to support the national nClv,,'ork of
    fus ion ccntcr~.

    1>11 $ Hcsponsc: Concur. I&A i!) committed to lead ing a working, group composed of
   Cornporu.:nl memhers charged \-\o'ilh developing a s trategy that rdlecis Departmental an(\ I&A
   strategk plan alignment~ Depar1rncnt t:ommitmcnts and ongoing Cfl011s, and future cngagcment
   plans to support the :\Jallonal Ndwork . fn addi l ion In working with COl11po n(:nr 1t;:',adefShip to
   obtain :-;upporl in lhis t.:nUGI\ior. \VC hav~ al r ~ady initiated or ~xecuted ~ever(J1 effim,o.;10 more
   full y lnlt:grak Com ponenls \\"1111 Itl:)ion ct::'nkr~ and l11(1ximizt::' the U!:i(: of existing 0115 resources
    to mcet both    fLl ~j on CGntC I'   and OHS   ret.luircmcnt ~.


   I&A ha.'i ~:-;tab l ished the SLPO De partmental Coordination Branch (DeB}. staffed with
   Component detailees, that continues to engage Components to faci litate the deployment of
   C\nnpUl1cnt repre::;entative:s to fu:-)ion centers. These Component det ~ilees fire a vital cond uit for
   ini(mmHion sharing \vi th slate. loc.al , triha l, :md tenitorial pa rtn~rs present ut the fus,ion centers,
   A~ addilional Cumpommt r~pr~ :sent ali v~:s becume tmgagot!rl. mort! products and knowledge have
   become availahle fi)rdi~tribution to fu ~ion centers, rurlher supporting (he National f't!hvurk
   mission. sr .PO Component repre::;entatives c.(lntillue 10 collahorate with deployed OJ is
   personnel tn engage and faci litate Component ~ upport, \vhi\e g~uging the future needs of the
   fu sion centers through teleconferences and surveys. This exchange provides iJnportnnt
   in rnnllmion from the field that will he provided to Component leadership f(Jr use in ot!valuating
   their rc:-;ources to he:-;( support fusion cen ters.

    I&A also lnterat,:i:s \vilh Componenl leadership. such            (IS   at   th~   SES Advisor): Grollp meetings and
   t he IIS I( ', to presellt the needs and concerns (lf lh c fus ion I;l!rHcrs where appro priate". During
   lhc:-;c mccling~ l&i\ c.ul vlH.:alc:-; Cor ftl:;:inn ct'nh;.'rs. both addn:ssing fusion c,enter SllCCesses .(llld
    l~on('crns   and provid ing a more- fulsomc portrayal of how n.lSlon                 ccntL.'1"~   nperah:.

    Rccommcndation #4: Survey ~omponen t partir.;ipation                 :.It H.lsion centers to ensure thut the
   dt!pmtment 's     p r~senc~   is appropriately     r~ported,   and align results \vith fusion center needs.

   DHS Response : Cunc ur. In the spring of" 201 I, SLPO l:onuuclcu the Rcquiremem.\·for FU.<iion
   C CH/er SWT!.)'to dctermine the ex tent to \vhich representHtive:,; rrom Comp0I1l:n1S should he
   assigned to fusion ccnkrs. This survey documented Cumpom:nt support to tlisioll centers as well
   a~ fusio n centers ' rCt.luc:sts j{Jr addit ioTlal Component and 111leragency p~r:-;onnel ~ ~yste111 acce:-;~ ,
   and tmining. l&A validated survey responses rceci\.'ccl from (he nH~iorit y of fusiun t:clllcr:-; and
   the results WGrc pre.'iclltcd to Componcnt I ~ndcr.:; hip at the June 2011 SES Advi sory Crroup
   meeting. These results. provided Component leadership \vi th an enhanced l)epa rtmcllt-\vidc




   DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                                           Page 44
Appendix C
Management Comments to the Draft Report

                                                                                                               -4-


    unde:rstanding of fusion ccnt~r ncc-ci;;; <.llul can h~ used in targeting C\)THponent :support to fliSioll
    ~c.:: ntcr.,
            and in dcn~loping [It\.: i.l~sot: iah..."{l poll,,:)' and budget rr.::cl)mmcndations in future YCMii.

    Additionally, SLPO led fhe devdopment of the !J~formalion Sharing Environmenf Guidance:
    Federal Resnurce Allocation Cri{('ria (RAe) policy, which defines objective criteria and a
    conrdinated UI}Pro<1ch for prioritizing the allncalit..)n of federal l'csourccs to rU~1011 centers. The
    goal orthis policy i~ tu enhance the eftectivene", of federal .upport to the National "let work 10
    execute the statewide fusIon process T he RAe policy will cllable the Federal Govcl'Ilmcnt to
    concentrate resources in a manner that will improve the efficiency of it:s support 10 fllsion centers
    ,mel help bring cons,i:-)tency and transparency to the proce.ss of prioritizing fcderal resourCe
    allocation. The RAe policy pn,l""ides Components with a clearly defined <lpproaeh to as~jgning
    th~ir pcr:;:;Olltlcl to fusion centers and focusing their rcsollrces. This policy will ensurc that
    Componellt SUppOI1 to rhe fusion centers is prioritized and coordinated using defined criteria
    across lJHS and interagency partners.

   Recommendation #5: \Vork with DHS componcnt leadership to de . . .elop anu is~ue \\o'riHen
   guidance that cnsurcs rcquircnlenlS and t:xpectatiolls for supporting the lltltionai network of
   fusion centers are c;;ommunicntcd and implcmented.

    DHS      R~s pun sc:  Con cu r. We envision that Compunent personnel will fi)ll(lw the same
   protocols established fex J&A personnel- to maintain an nnicial superviso r}.' structure and
   rccei\'e prOh'T<I11l1l1 atic b,Yl.ddancl! from their respecti ve organ izations while aeknO\\o'ledgi ng the
   l&A lnldli gence Officers' role as DHS tenrn lead at the fusioll center. To enectjn~l y c;;odi fy this
   approi.l.ch, we \vill convene a working group of Component rcpr~sentat.ives in the first quarter of
   FY 2012, and the working group will pre ~en l ih recommendations to Component leadership
   through the ~FS Advisory Group. This working group will consider all Memoranda of
   l\gn::eHl~nt. Memoranda of Understanding. and C('lllcepts of Operation currently used by
   d ifferent Component$ tu detine tlte roles and rcspon.libilitie, uf deploying Component p~""nnd
   to lusiOl1 centers before a ti nill set of document.'> regardi ng th~ presencc o f deplo yed assets is
   c~tabli;.;!H.:!u.


   Reco mmendatioll #6: expand the. lntclligen<:e Ofticcr orientation and train ing pft.Kess to
   include i.l I(lnnal mClltoring program v,·here Intell igence Officers C[l11 net\\'ork anu Jiscu~s issues
   and concerns with peers.

   DH S Response : Con cur. SLPO formally I.:st i.1hl i ~ hcJ 11 mcn loring program ()f\ March 14, 2010
   with the publicatil'1') of the "State :l11d Local Program artier.! Spt.Hl:').orship Pmgrillll:' Thi;.;
   program e.-;!ablishcd pnJcL"dmc:'1 tl) r as-signing :-;POll!'Ul'S to ~UppOr1 ncwly hi red and currently
   deployed intclligcnl.:t:: OlTicefs (lOs.) nnd Regiollal Dirct..'tors (ROs) with less. tiUHl 12 months of
   field expericllcc. F~)r i.l period lip to 12 months. assigllcd sponsors provide new [Os ant..! RDs
   \vi th gu idance- and :support during prc-nnivn l, ~)n-h()anl i ng. ami initial dcplQ}111ent. SLPO
   provides 1l1llOs and RD ~ innumeruh1c opportunitics to Ilc[I,\·nrk and di ~l.:uss issUl.'s and COtlCCnlS
   with theil' r~SpCCltVC rl~t!rs through (:01 Iabol'atioIt during n.:gLdarly sche(iukd. and (ld hoc
   Cl)llt~ren\c ('a Il s. r,.~ onfl.l'clH.x:s. and off-sitt:.':i. and by leveraging IL'chnology (including e-mail,
   telephone and video tcle,,:onfcrcndng).




   DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                                     Page 45
Appendix C
Management Comments to the Draft Report




    l'hrough the cxp,ansion of its lO (Uul RD orientation and train ing pro cess and tbe cstabli:.'ihmcllt
    ofa furmal mel1toring program, I&A believes that it has ;mswcred the spirit oftbis
    rcenmmclluatioTl and requests thal it he closeu .

    Recommendation #7 : In L:oon.limuion with fu:sion L:t!nter h::,adersh ip, develop and document a
    process to idL"nfify and uellne roles. respnnsihilities., and ex pectation:-; among Regional Directors
    alld Intclligcllct:: Otlic:ers.

    DHS R os puns c; C oncnr. I&A has developed roles. responsibilities. and expectations for S [J'()
    employees deployed to the fusion eJ.;oh.;rs; which art; uutlim.:u wi th in -each t'mployee positioll
    description and deta iled in other various in(enwl documentation. In lelligence Onicers serve as
    I&/\ 's immediate, url-the-sccrle rcpn.:sen(ative~ to leverage the Intelligence Com munity's
    r.:ap'lbilitics. reso urces. and expcnise to supporl stale and loca l homeland securi ty prio ri ties. J\ S
    such, they co nduct activities in support (lfthe inte lligence cycle at fusion cen ters. s upport the
    fliSillll centers in developing their Critical Operational Capabilities (CO(,), provide Slip port to a
    fLision ccuh.'T ami its s tate, lo<.:al , tribal. lerrih.lrial (S r TT) and private sector pm111crs, and
    represent the l)HS to f't:deral , SLIT, and private secto r partners.

    Regional Oirectors are res ponsible for managing the activities. of <ll l DHS/I& /\ pcn:;()llnd
    stationed ill th ~ir respeL'tivt! regi . .m~ and f~u' a~sisti n g senior ~ta te and IOr.:(ll kadcrship wit h
    Jt:vdoping their rLlsion proct:sscs. RDs tk'vdop anJ lead regional iniliativ~ s t.hat s uppot1 the
    fu.sion ct!nje.r~ and pn.l\..' id~ reglJ]m in put rllld ~ up purt to SLPO JIeadq Llartcrs when
    applieuh\c. Thcir rcsponsihilitics indudc n:lationshir developmenl. pronluting cohesion and
    collah\)ral ioll , i.1dVOCi.KY, lllt:nlorillg and mediatiol1, and administrativt:: suppO t1. SI,PO d cvdo p ~d
    10 ami RD roll.'s ami respol1sihilities 10 provide the most effect ive an d effi.cie111 5UPPOl1 possible
    to the fusion center mission and to fusion centcr leadership.

   As a rcsult of the estab lishcd process to idcntit~'v' and ddine the roles, rcsponsihilitic:;. and
   expectations for Regional Oirector;s and Infelhgenr.:e Offi~ers. which incorporates input from
   fusion center leadership \vhercvcr app ropriate. I&A belicves that it has. arJ:)wered the spirit (Jrthi~
   rct.:ommendation and rt:qLlL:sts Ihal il be closed .

   Again, we appreciale this opportunity to revie\\-' and comment 011 the draft report, In add ition to
   thi s rcspon~c . technical comments nnd a sensitivi ty review \Vcrc provided under separale C()vcr.
   Thc Dcpnrtlllcnt looks fon.vnrd to working \vith you 0 11 fu ture Homclnnd Security cngagement:;.

                                               Sincercly.




                                               Caryn. "'"gnc!'
                                               Under erdary for Inteil Uee
                                                                            ~
                                                  <lnd     alysis




   DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                                         Page 46
Appendix D
DHS Funding Sources for Fusion Centers

                         Homeland Security Grant Program Overview

                         The major DHS funding source that fusion centers are eligible to
                         receive comes from the department’s Homeland Security Grant
                         Program. This grant program was created to enhance the ability of
                         state, territorial, tribal, and local governments to prepare for,
                         prevent, respond to, and recover from potential terrorist attacks and
                         other hazards. The program has five sub-programs that target
                         different aspects of homeland security.

                         State Homeland Security Program

                         The largest of these sub-programs is the State Homeland Security
                         Program. This program, which consists of a set allotment for each
                         state and additional state allocations based on DHS’ risk
                         assessment, intends to build state and local capabilities. DHS
                         obligates these grant funds to a State Administrative Agency to
                         administer and distribute. 23 States are required to dedicate at least
                         25% of the grant funds to law enforcement terrorism prevention-
                         oriented planning, training and exercises, and equipment. Although
                         fusion centers often conduct these activities, a state is not required
                         to provide State Homeland Security Program funding to fusion
                         centers. In FY 2010, $842 million was available in the State
                         Homeland Security Program for all 50 states, the District of
                         Columbia, the Commonwealth of Puerto Rico, and the U.S.
                         territories.

                         Urban Areas Security Initiative

                         Certain centers may receive funding from the second-largest
                         funding source, the Urban Areas Security Initiative. The grant
                         amount is risk-based. A fusion center in a high-risk urban area
                         may be eligible to receive funding from both the State Homeland
                         Security Program and Urban Areas Security Initiative programs.
                         In FY 2010, $832.5 million was available for 64 predetermined
                         high-risk metropolitan areas.

                         Metropolitan Medical Response System Program

                         Fusion centers are beginning to include their state or regional
                         emergency response and public health functions in existing
                         operations. The Metropolitan Medical Response System Program


23
 The State Administrative Agency is the Governor-designated body that applies for and administers
Homeland Security Grant Program grant funds.

     DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                                Page 47
Appendix D
DHS Funding Sources for Fusion Centers

                       evenly distributes funding to 124 jurisdictions to support medical
                       response capabilities to public health crises, including terrorist
                       attacks. In FY 2010, $39.4 million was available. A fusion center
                       with a metropolitan area’s medical emergency response functions
                       may receive funding from the State Administrative Agency to
                       support those capabilities.

                       Citizen Corps Program

                       For fusion centers that support collaboration between community
                       and government leaders, and involve the community in emergency
                       preparedness, planning, mitigation, response, and recovery, the
                       Citizen Corps Program is a potential funding source. Funded at
                       $12.5 million in FY 2010, a set amount is distributed to states and
                       U.S. territories, with the balance distributed based on population.




   DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                              Page 48
Appendix E
Examples of Fusion Center Activities

                        Attempted Colorado Bookstore Bombing

                        In June 2011, the Lakewood, Colorado Police Department received
                        information that an individual had placed two improvised
                        explosive devices at a Borders book store at the Colorado Mills
                        Mall. The Police Department notified the FBI, who activated the
                        Joint Terrorism Task Force. FBI and Bureau of Alcohol, Tobacco,
                        Firearms and Explosives agents responded to the scene and passed
                        information to the Colorado Information Analysis Center. A few
                        hours later, the Center sent information to fusion centers
                        nationwide and Terrorism Liaison Officers statewide, requesting
                        information that may relate to the incident. Within 15 minutes the
                        Center received vital information from a state trooper, that a
                        suspect had crashed his vehicle and was taken into custody for
                        felony menacing and driving under the influence of alcohol about
                        24 hours earlier. The trooper believed the suspect he arrested was
                        also the suspect in the book store bombing attempt. The Center
                        received another lead from a different Terrorism Liaison Officer,
                        which linked the suspect to another device that partially detonated
                        near a hotel a short distance from the book store. The Center
                        passed this information to the FBI’s Joint Terrorism Task Force to
                        further support the investigation. The suspect was held on charges
                        stemming from the incident.

                        Suspicious Tractor Trailer Travelling to New York City

                        On October 8, 2010, a police department released an advisory
                        regarding a tractor trailer whose driver reportedly had been given
                        $10,000 to divert his route to New York City’s Times Square. The
                        IO alerted several fusion centers in the region. The Rhode Island
                        Fusion Center was able to determine the origin and owner of the
                        tractor trailer, and the Northern California Regional Intelligence
                        Center coordinated with the state police to locate and search the
                        vehicle. Upon questioning the occupants, officials concluded that
                        the vehicle was not a threat. Within hours, the fusion centers,
                        working with their IOs and local police were able to de-escalate the
                        incident.

                        Times Square Bombing Attempt

                        Faisal Shahzad planned to detonate a car bomb at New York City’s
                        Times Square on May 1, 2010. Following the failed attempt,
                        fusion centers across the country provided federal partners with
                        other tips relating to Shahzad. These tips resulted in additional
                        leads and the development of federal intelligence products. For
                        example, the New York State Intelligence Center received a
    DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                               Page 49
Appendix E
Examples of Fusion Center Activities

                          suspicious activity report on May 2, 2010, from a locksmith who
                          called the center and indicated that he had helped Shahzad get into
                          the vehicle earlier that day.

                          New York City Subway Bombing Attempt

                          In September 2009, the Colorado Information Analysis Center
                          received a tip on its website and 1-800 hotline number pertaining
                          to suspicious activity. Najibullah Zazi was observed purchasing
                          large quantities of hydrogen peroxide and acetone from local
                          beauty stores. These chemicals can be used to make explosives.
                          Zazi planned for multiple people to simultaneously set off the
                          bombs, carried in backpacks, at the busiest stops on the New York
                          subway system. The FBI already had Zazi under surveillance, and
                          the fusion center’s tip confirmed FBI suspicions. The Colorado
                          Information Analysis Center worked closely with the FBI
                          throughout the investigation, which ultimately resulted in the arrest
                          of Zazi and his guilty plea.

                          Plotted Murder of Swedish Cartoonist

                          In September 2009, the Colorado Information Analysis Center
                          received a report regarding a missing woman, Jaime Paulin-
                          Ramirez, who had recently converted to Islam and was
                          communicating with a man from Pakistan. The fusion center
                          learned in the report that the missing woman was thought to be
                          traveling to New York to meet with this Pakistani national. After
                          providing the information to the FBI, the fusion center learned that
                          Paulin-Ramirez was conspiring to murder a Swedish cartoonist
                          who had depicted an Islamic religious figure as a dog in a cartoon.
                          The Colorado Information Analysis Center also learned that
                          Paulin-Ramirez was in communication with Najibullah Zazi and
                          other suspected terrorists.

                          International Kidnapping Attempt

                          In May 2008, an IO, the Central California Intelligence Center
                          leadership, and a county sheriff’s department collaborated on an
                          AMBER Alert for a 3-year-old child. 24 The suspected abductor
                          was wanted for rape and murder and was a flight risk. Working



24
   The AMBER Alert™ program is a voluntary partnership among law enforcement agencies, broadcasters,
transportation agencies, and the wireless industry to activate an urgent bulletin in the most serious child
abduction cases.

     DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                                  Page 50
Appendix E
Examples of Fusion Center Activities

                          with the DHS National Operations Center, 25 the International
                          Criminal Police Organization, 26 and local law enforcement, the
                          group determined the suspect was on a flight to the Kingdom of the
                          Netherlands. The suspect was detained in Amsterdam and the
                          child was found unharmed.

                          Attempted Campus Shooting

                          In January 2008, the Illinois Statewide Terrorism and Intelligence
                          Center received a tip regarding a man traveling across state borders
                          to kill a woman and her boyfriend, and to carry out a campus
                          shooting. The Illinois Statewide Terrorism and Intelligence Center
                          and the Virginia Fusion Center produced and disseminated an alert
                          to hundreds of state and local law enforcement officers within
                          hours of receiving the tip. The Virginia State Police and local law
                          enforcement located and detained the suspect. The case was
                          pursued by the FBI and resulted in a guilty plea.

                          Intercepted Explosives Transport

                          On August 4, 2007, a DHS IO received a call from Florida’s
                          Homeland Security Advisor regarding two state university students
                          who were being questioned during a traffic stop in South
                          Carolina. 27 The limited information available included the
                          subjects’ ethnicity, news that that a bomb squad was involved, and
                          vehicle registration information. The Florida Fusion Center
                          employee received background information on the vehicle and
                          registered owner from the officer in South Carolina conducting the
                          traffic stop. This information was sent to DHS’ National
                          Operations Center and the FBI Joint Terrorism Task Forces in each
                          state within minutes. The two subjects were charged and
                          subsequently tried for providing material support to terrorists.




25
   The National Operations Center coordinates information sharing to help deter, detect, and prevent
terrorist acts and to manage domestic incidents by providing real-time situational awareness and
monitoring, coordinating incidents and response activities, and, in conjunction with I&A, issuing threat
advisories and specific protective measures via the centers Intelligence Watch and Warning element.
26
   The International Criminal Police Organization is a worldwide law enforcement organization that
facilitates cross-border police cooperation and supports and assists all organizations, authorities, and
services whose mission is to prevent or combat international crime.
27
   A state’s Homeland Security Advisor is, after the Governor, the lead point of contact between the state
and DHS. The Homeland Security Advisor should be able to access the state’s entire homeland security
enterprise to make critical decisions during crises and keep the Governor informed of emerging threats,
events, and responses. A Governor’s Guide to Homeland Security, NGA Center for Best Practices (2010).

     DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                                  Page 51
Appendix F
Major Contributors to this Report

                        Marcia Moxey Hodges, Chief Inspector
                        Angela Garvin, Team Lead Inspector
                        Katherine Roberts, Senior Inspector
                        Kimberley Lake, Inspector
                        Morgan Ferguson, Inspector




    DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                               Page 52
Appendix G
Report Distribution

                        Department of Homeland Security

                        Secretary
                        Deputy Secretary
                        Chief of Staff
                        Deputy Chief of Staff
                        General Counsel
                        Executive Secretariat
                        Director, GAO/OIG Liaison Office
                        Assistant Secretary for Office of Policy
                        Assistant Secretary for Office of Public Affairs
                        Assistant Secretary for Office of Legislative Affairs
                        Under Secretary for Office of Intelligence and Analysis
                        Principal Deputy Under Secretary, Office of Intelligence and
                          Analysis
                        Under Secretary, National Protection and Programs Directorate
                        Administrator, Transportation Security Administration
                        Director, U.S. Immigration and Customs Enforcement
                        Commissioner, U.S. Customs and Border Protection
                        Commandant, U.S. Coast Guard
                        Director, U.S. Citizenship and Immigration Services
                        Director, U.S. Secret Service
                        Officer for Civil Rights and Civil Liberties
                        Chief Privacy Officer
                        Director of Local Affairs, Office of Intergovernmental Affairs
                        I&A Audit Liaison
                        TSA Audit Liaison
                        ICE Audit Liaison
                        CBP Audit Liaison
                        USCG Audit Liaison
                        U.S. Citizenship and Immigration Services Audit Liaison
                        U.S. Secret Service Audit Liaison

                        U.S. Department of Justice

                        Federal Bureau of Investigation
                        Bureau of Justice Assistance
                        GAO/OIG Liaison

                        Office of Management and Budget

                        Chief, Homeland Security Branch
                        DHS OIG Budget Examiner




    DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers

                                               Page 53
Appendix G
Report Distribution

                         Congress

                         Congressional Oversight and Appropriations Committees, as
                         appropriate




    DHS’ Efforts To Coordinate and Enhance Its Support and Information Sharing With Fusion Centers 


                                               Page 54

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, e-mail your request to our
OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov, or visit our OIG
websites at www.dhs.gov/oig or www.oig.dhs.gov.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
